<html>
<title> - ARMY CONTRACT MANAGEMENT: COMPLIANCE WITH OUTREACH AND PUBLIC ACCEPTANCE AGREEMENTS</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





     ARMY CONTRACT MANAGEMENT: COMPLIANCE WITH OUTREACH AND PUBLIC 
                         ACCEPTANCE AGREEMENTS

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                   EMERGING THREATS AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                            OCOTBER 22, 2003

                               __________

                           Serial No. 108-136

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

93-283              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
JOHN SULLIVAN, Oklahoma              C.A. ``DUTCH'' RUPPERSBERGER, 
NATHAN DEAL, Georgia                     Maryland
CANDICE S. MILLER, Michigan          ELEANOR HOLMES NORTON, District of 
TIM MURPHY, Pennsylvania                 Columbia
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN R. CARTER, Texas                CHRIS BELL, Texas
WILLIAM J. JANKLOW, South Dakota                 ------
MARSHA BLACKBURN, Tennessee          BERNARD SANDERS, Vermont 
                                         (Independent)

                       Peter Sirh, Staff Director
                 Melissa Wojciak, Deputy Staff Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
              Philip M. Schiliro, Minority Staff Director

 Subcommittee on National Security, Emerging Threats and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman

MICHAEL R. TURNER, Ohio
DAN BURTON, Indiana                  DENNIS J. KUCINICH, Ohio
STEVEN C. LaTOURETTE, Ohio           TOM LANTOS, California
RON LEWIS, Kentucky                  BERNARD SANDERS, Vermont
TODD RUSSELL PLATTS, Pennsylvania    STEPHEN F. LYNCH, Massachusetts
ADAM H. PUTNAM, Florida              CAROLYN B. MALONEY, New York
EDWARD L. SCHROCK, Virginia          LINDA T. SANCHEZ, California
JOHN J. DUNCAN, Jr., Tennessee       C.A. ``DUTCH'' RUPPERSBERGER, 
TIM MURPHY, Pennsylvania                 Maryland
WILLIAM J. JANKLOW, South Dakota     CHRIS BELL, Texas
                                     JOHN F. TIERNEY, Massachusetts

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
                        Robert A. Briggs, Clerk
           David Rapallo, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 22, 2003.................................     1
Statement of:
    Arnold, Derrell..............................................   127
    Bronston, Willa..............................................   128
    Centofanti, Dr. Louis, president and CEO, Perma-Fix, 
      Incarceration; Michael A. Parker, Acting Director, Chemical 
      Materials Agency, U.S. Army; and John T. Stewart, Parsons 
      Infrastructure & Technology Group, Incarceration...........    72
    Crutcher, Gwendolyn..........................................   128
    Dell, Philip.................................................   126
    Neal, Idotha Bootsie, commissioner, city of Dayton; Angela 
      Jones, trustee, Jefferson Township; Mary Johnson, private 
      citizen; Ellis Jacobs, attorney, Legal Aid Society of 
      Dayton; Dennis Bristow, coordinator, Dayton Regional 
      Hazardous Materials Team; and James A. Brueggeman, 
      director, Montgomery County Sanitary Engineering Department     9
    Ohui, General................................................   129
    Redfern, Jane Forrest........................................   125
    Rench, Laura.................................................   128
    Tiller, Tom..................................................   127
Letters, statements, etc., submitted for the record by:
    Bristow, Dennis, coordinator, Dayton Regional Hazardous 
      Materials Team, prepared statement of......................    57
    Brueggeman, James A., director, Montgomery County Sanitary 
      Engineering Department, prepared statement of..............    61
    Centofanti, Dr. Louis, president and CEO, Perma-Fix, 
      Incarceration, prepared statement of.......................    73
    Jacobs, Ellis, attorney, Legal Aid Society of Dayton, 
      prepared statement of......................................    28
    Johnson, Mary, private citizen, prepared statement of........    21
    Jones, Angela, trustee, Jefferson Township, prepared 
      statement of...............................................    15
    Neal, Idotha Bootsie, commissioner, city of Dayton, prepared 
      statement of...............................................    11
    Parker, Michael A., Acting Director, Chemical Materials 
      Agency, U.S. Army, prepared statement of...................    97
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut:
    Letter dated July 24, 2003...................................   121
    Prepared statement of........................................     3
    Stewart, John T., Parsons Infrastructure & Technology Group, 
      Incarceration, prepared statement of.......................   106
    Turner, Hon. Michael R., a Representative in Congress from 
      the State of Ohio, prepared statement of...................     7

 
     ARMY CONTRACT MANAGEMENT: COMPLIANCE WITH OUTREACH AND PUBLIC 
                         ACCEPTANCE AGREEMENTS

                              ----------                              


                      WEDNESDAY, OCTOBER 22, 2003

                  House of Representatives,
Subcommittee on National Security, Emerging Threats 
                       and International Relations,
                            Committee on Government Reform,
                                                        Dayton, OH.
    The subcommittee met, pursuant to notice, at 12:37 p.m., in 
the Fred Smith Auditorium, Sinclair Community College, 444 West 
Third Street, Dayton, OH, Hon. Christopher Shays (chairman of 
the subcommittee) presiding.
    Present: Representatives Shays and Turner.
    Staff present: Lawrence Halloran, staff director and 
counsel; Robert A. Briggs, professional staff member/clerk; and 
Chris Skaluba, Presidential management intern.
    Mr. Shays. A quorum being present, the Subcommittee on 
National Security, Emerging Threats and International Relations 
hearing entitled, ``Army Contract Management: Compliance with 
Outreach and Public Acceptance Agreements,'' is called to 
order.
    Let me first thank Congressman Mike Turner for inviting the 
subcommittee to Dayton today, and for his thoughtful, diligent 
service as our vice chairman. His experience, his insight and 
his candor have added invaluably to our oversight. Obviously 
when it comes to reforming government, this is no freshman.
    We convene here because, as former Mayor Turner will not 
stop reminding us, everything and everyone in the world has 
some connection to Dayton. [Laughter.]
    As the people of Bosnia-Herzegovina know, what happens here 
can have international, even global, implications.
    The apparently local issue at hand is an Army subcontract 
for treatment and release of byproducts from the destruction of 
the chemical weapon VX. But what this community has experienced 
in the implementation of that contract will have a profound 
impact on how the United States conducts the process of meeting 
international treaty obligations for the destruction of VX 
stockpiles under the Chemical Weapons Convention.
    That process, pursued through Army contractors, makes local 
disposal of the VX dissolution byproduct, hydrolysate, 
specifically contingent upon the establishment and maintenance 
of public acceptance. The contract requires detailed, sustained 
and successful public outreach to build and maintain that 
acceptance, as it should.
    The necessary and noble enterprise of ridding the world of 
dreaded chemical weapons should not terrorize the localities 
involved with the technical jargon and vaguely characterized 
environmental risks. Civic understanding and approval are 
indispensable elements of this effort. Public confidence should 
not be diluted or destroyed with the VX.
    But the Army at times has appeared to forget, or regret, 
the critical public outreach and acceptance elements of the 
agreement. Alternatively attempting to ritualize, minimize or 
altogether shift responsibility for civic involvement, the 
government and its contractors have succeeded only in 
galvanizing public anxiety and opposition to the VX hydrolysate 
disposal plan.
    If only as a cautionary tale how not to forge a required 
popular consensus, testimony today will be of significant value 
as the Federal Government, States and localities pursue the 
important and challenging public business of chemical 
disarmament.
    On behalf of our members, all of whom will receive a 
complete transcript of today's proceedings, we welcome our 
witnesses and guests to this hearing. We look forward to a 
frank discussion of this community's experience and the lessons 
Dayton holds for the national chemical weapons demilitarization 
program.
    With that, I gladly give up the chair to the Vice Chair.
    [The prepared statement of Hon. Christopher Shays follows:]

    [GRAPHIC] [TIFF OMITTED] T3283.001
    
    [GRAPHIC] [TIFF OMITTED] T3283.002
    
    Mr. Turner [presiding]. Thank you, Mr. Chairman.
    I greatly appreciate the chairman having this field hearing 
and coming to Dayton. He is a leader in the area of national 
security and on issues of terrorism. He has pushed for U.S 
preparedness and for preparedness at the local level for 
responding to terrorist incidences even prior to September 
11th. He has led our committee most recently on looking at 
issues such as the safety of our nuclear weapons stockpiles, 
nuclear power plants and air cargo carriers and has been a 
major advocate for increasing the safety in each of those 
areas. He has brought the full weight and authority of this 
committee on to this issue, and I do want to say that we would 
not be here but for his willingness to look at this issue. And 
I do believe that we would not be having the same outcome but 
for his interest and appreciation for what this community was 
attempting to do.
    We want to recognize our county commissioners and their 
efforts in trying to apply sound science and principles in 
their efforts to reject the permit of Perma-Fix. We have County 
Commissioner Curran here with us today, along with Vicki Peg 
and Don Lucas. They are to be commended for taking a stance on 
a regulatory basis and saying not in our community. And, of 
course, we have to congratulate Mary Johnson, Willa Bronston, 
Ellis Jacobs and Jane Forrest for all of their efforts in 
organizing the community. Angela Jones and the township 
trustees, what you have done in Jefferson Township in making 
certain that this is a regional effort and not just a community 
effort has been very important. This is very Dayton of us to 
have reached out together and sought a solution that we could 
all make certain that we could implement.
    The testimony today will give us an opportunity for 
everybody to give their input on the community-wide effort, 
talk a little about science, talk about intended policies, talk 
about--we will be talking a little bit about the international 
treaties that impact this process. We will be talking about 
processing contracts because that is the issue that really 
brings us here. It is important that we are having this 
hearing, but what is most important is that at the end of it we 
are expecting to hear from Perma-Fix and Parsons and the Army, 
the results of your hard work, and the resounding answer that 
this contract will be terminated and these materials will not 
be coming to our community.
    Having said that, I do have a written opening statement 
that I would like to read for the record. It says that the 
purpose of this hearing is to review the Army contract and 
subcontract management in the chemical weapons demilitarization 
program. As we all know, the Chemical Weapons Convention 
prohibits the development, production, acquisition, 
stockpiling, transfer and use of chemical weapons. Under this 
Convention, the United States must destroy the chemical weapons 
and chemical weapons production facilities it possesses. The 
United States currently maintains eight military sites with 
stockpiles of chemical weapons awaiting destruction by the 2007 
deadline.
    The Army's plans for destruction of the Newport site was a 
two-step process of neutralization. Both steps were originally 
scheduled to be done at the Newport site. However, after the 
events of September 11th, chemical weapons stockpiles were 
believed to be vulnerable targets for future terrorist attacks.
    Accelerating the destruction of the Newport stockpile 
became a concern to the Army; thus, the second step of 
neutralization to destroy the Newport VX was contracted out. 
And last December, Perma-Fix of Dayton was awarded a $9 million 
contract to treat and dispose of the hydrolysate shipped from 
the Newport site.
    Mr. Chairman, no one in this community opposes the 
acceleration of the destruction of the chemical weapons. The 
problems in our community come from the Army's refusal to 
establish public acceptance for the planned transport and 
disposal.
    Our witnesses here today will testify that at best the Army 
has been inconsistent about its stance with regard to the level 
of public acceptance necessary. The Army has continually 
delayed responding to concerns and requests for information on 
the processes from local communities as well as this 
subcommittee.
    Thirty-six local boards and councils passed resolutions 
against the transport of hydrolysate at Montgomery County. 
Still Army claimed that it had sufficiently addressed public 
acceptance requirements of the contract.
    As a resident of this community, I am glad that the 
subcontract has been canceled. However, I am deeply concerned 
about the Army's unwillingness to recognize the problems 
inherent in its approach here in Dayton. Chemical weapons 
destruction is a sensitive issue that will require serious 
debate in any community that it might affect.
    Mr. Chairman, I want to thank you again for your efforts in 
working with me and allowing this hearing to go forward in our 
community. And to our witnesses, I want to thank them for their 
efforts in this great outcome for our community.
    [Applause.]
    [The prepared statement of Hon. Michael R. Turner follows:]

    [GRAPHIC] [TIFF OMITTED] T3283.003
    
    [GRAPHIC] [TIFF OMITTED] T3283.004
    
    Mr. Turner. On a procedural note, I will ask unanimous 
consent that all members of the subcommittee be permitted to 
place any opening statement in the record and that the record 
remain open for 3 days for that purpose. Without objection, so 
ordered.
    I ask further unanimous consent that all witnesses be 
permitted to include their written statements in the record. 
Without objection it is so ordered.
    If we would please have all of our witnesses stand on the 
first panel, I will swear you in.
    [Witnesses sworn.]
    Mr. Turner. Please note for the record that the witnesses 
responded in the affirmative.
    We have a very distinguished panel of community leaders. 
Our first testimony on panel one comes from the Honorable 
Idotha Bootsie Neal, Commissioner, city of Dayton.

   STATEMENTS OF IDOTHA BOOTSIE NEAL, COMMISSIONER, CITY OF 
    DAYTON; ANGELA JONES, TRUSTEE, JEFFERSON TOWNSHIP; MARY 
  JOHNSON, PRIVATE CITIZEN; ELLIS JACOBS, ATTORNEY, LEGAL AID 
SOCIETY OF DAYTON; DENNIS BRISTOW, COORDINATOR, DAYTON REGIONAL 
 HAZARDOUS MATERIALS TEAM; AND JAMES A. BRUEGGEMAN, DIRECTOR, 
       MONTGOMERY COUNTY SANITARY ENGINEERING DEPARTMENT

    Ms. Neal. Well thank you very much, Chairman Shays and Vice 
Chairman Turner. We really appreciate the subcommittee coming 
to Dayton, OH on a very important issue and allowing us to have 
as a part of the community record what the position is.
    Good afternoon and thank you for allowing me to speak 
before you today. In light of the recent decisions that have 
been announced regarding the proposed agreement between the 
Army and Perma-Fix of Dayton, I want to thank the House 
Subcommittee on National Security, Emerging Threats and 
International Relations for proceeding with today's hearing as 
a way to officially document the community's position.
    From the onset of discussions in March regarding the 
proposed agreement between the Army and Perma-Fix, I submit 
that the public has voted consistent and rational, fair in 
opposition on numerous fronts.
    The city of Dayton is on record as of 1 of 33 regional 
government agencies or organizations opposed to the proposed 
agreement. We believe such concerted and overwhelming 
opposition to the agreement is a clear signal of the public's 
sentiment. To ignore such evidence would be in direct violation 
of the requirement to gain public acceptance before any final 
agreement could be consummated.
    It is clearly a failure on the part of the key parties 
involved to galvanize community support and gain acceptance of 
the proposed agreement. In fact, despite attempts to educate 
and sway the public into accepting the proposal, the community 
used the information that was supplied as a way to clearly and 
rationally outline further public health concerns and 
justification for its opposition.
    The response by the community to oppose the Army's contract 
with Perma-Fix should in no way be considered a rash, impulsive 
reaction. The volume and scope of information that the public 
has effectively presented to help justify its opposition 
demonstrates that considerable thought and review went into 
reaching its conclusions.
    Experts in various fields carefully analyzed the impacts if 
the agreement were to take effect. Questions raised by the city 
of Dayton and Montgomery County environmental experts indicated 
that many issues were unresolved. The city of Dayton's own 
staff and environmental advisory board had outlined numerous 
unresolved issues even as last week's decision to terminate the 
agreement was announced. These included lingering questions 
about the reliability of the chemical detection levels as well 
as various transportation related concerns.
    The research and the analysis conducted by experts led them 
to essentially the same conclusion, that safety and operational 
issues of both the transportation and the treatment processes 
remain very much in doubt, and that the community could be 
negatively impacted as a result.
    The Montgomery County Commission relied on such expert 
feedback to deny the necessary permits required for Perma-Fix 
to perform its neutralization process. We commend and support 
the county in this very important decision.
    In addition, the formation of the grassroot organization 
called Citizens for the Responsible Destruction of Chemical 
Weapons of the Miami Valley illustrated the degree to which 
local residents were concerned about the proposed agreement. 
The group helped present good, cogent questions that needed to 
be addressed in a forthright manner.
    The filing of a lawsuit in Federal court further 
highlighted that the public was unmistakably opposed to the 
treatment of a toxic nerve agent in the community.
    The fact that we are even conducting this hearing today, 
given the circumstances that have transpired over the past 10 
days, is compelling evidence of the public's strong opposition 
to the proposed agreement.
    Although we support United States and international efforts 
to destroy chemical weapons, this process must be completed in 
a manner that protects the public health of the surrounding 
community. Clearly, this was not the case at the Perma-Fix 
facility.
    It is obvious that the contracting parties in this proposal 
have not achieved the measure of public acceptance required for 
the contract to proceed. We are pleased that this lack of 
support played at least some role in the ultimate decision to 
terminate plans to move forward. That decision is most 
assuredly one that the citizens of Dayton do support.
    Thank you again for allowing me to present this testimony 
before you today on a very important issue to our community and 
our region.
    Mr. Turner. Thank you.
    Next we have the Honorable Angela Jones, Trustee, Jefferson 
Township.
    [The prepared statement of Ms. Neal follows:]

    [GRAPHIC] [TIFF OMITTED] T3283.005
    
    [GRAPHIC] [TIFF OMITTED] T3283.006
    
    Ms. Jones. Good afternoon, Mr. Chairman and members of the 
committee. It is a pleasure to be here today to present my 
views on steps taken by the Army, Perma-Fix and Montgomery 
County with respect to the satisfaction of public acceptance 
requirements in Montgomery County's contract with the U.S. Army 
and Parsons. In doing so, I want to stress that my comments are 
based upon information I am aware of in the capacity as a 
Jefferson Township Trustee, a position which I have held for 6 
years.
    I have been invited to provide remarks regarding the extent 
to which I believe public acceptance measures of the contract 
in question have been fulfilled. However, it has been difficult 
to obtain a meaningful definition of what is meant by a measure 
of public acceptance for planned hydrolysate transport and 
disposal.
    During the mid-summer of 2002, representatives from Perma-
Fix of Dayton met with Jefferson Township officials stating 
that they were considering pursuing a contract with the Army to 
dispose of VX Hydrolysate. Shortly thereafter, Perma-Fix met 
with Montgomery County officials, also advising them that they 
were considering pursuing the contract. The Trustees were 
advised that Perma-Fix had submitted an application to Parsons 
in September 2002, to dispose of VX Hydrolysate.
    Soon after, the Jefferson Township administrator and fire 
chief met with a review team from Newport, IN; Parsons and the 
U.S. Army during their site visit at Perma-Fix of Dayton.
    On December 26, 2003 an announcement was made that Perma-
Fix of Dayton had received a limited notice to proceed and was 
awarded a subcontract from Parsons. Township officials met with 
Perma-Fix officials to discuss the best way to inform Jefferson 
Township residents of the award. After the announcement the 
townships were contacted--the township trustees were contacted 
by the citizens and urged to oppose the project. Perma-Fix then 
set up its first open house meeting, which was in January 2003. 
Officials from Perma-Fix, Parsons; Newport, IN and the U.S. 
Army were present with displays of showing the proposed 
process, general information packets and to answer questions 
from the Jefferson Township Community.
    After the first open house, it was clear to me that there 
were a lot of unanswered questions about the proposed project, 
the disposal process and how it would impact the health and 
safety of the township residents.
    Perma-Fix decided to hold a meeting in March 2003 to 
establish a citizen advisory panel. This meeting ended with the 
same unanswered questions. The citizen advisory panel was held 
to get citizens involved; however, the citizens did not wish to 
participate as a part of this panel. Rather, citizens came to 
the meeting asking pointed questions and to air their 
opposition to this process. This was clearly not public 
acceptance.
    Subsequently the Board of Trustees, in response to the 
concerns of the citizens and the inability of the Army, Parsons 
and Perma-Fix to adequately provide answers to specific health 
and safety questions, issued the following position statement 
on April 1, 2002: ``It is the position of Jefferson Township 
Trustees that the movement of VX Hydrolysate from Newport, 
Indiana to Parsons located in Jefferson Township, Montgomery 
County, Ohio is unacceptable. After receiving numerous calls 
from citizens and listening to their concerns at our monthly 
meetings and attending public information forums regarding the 
issues, we believe that there were several unanswered questions 
regarding the safety of the proposed project. This being the 
case, Jefferson Township Trustees unanimously oppose Perma-
Fix's efforts to process the VX hydrolysate in Jefferson 
Township.''
    The Montgomery County Commissioners passed a resolution on 
June 10, 2003 opposing the transportation and treatment of VX 
hydrolysate at Perma-Fix of Dayton's facility in Jefferson 
Township. The Montgomery County Commissioners also contracted 
with Dr. Bruce Rittmann from Northwestern University as an 
expert consultant to undertake an independent study of Perma-
Fix's proposed treatment methods and their entire process. Dr. 
Rittmann concluded that he did not fully understand the impact 
of Perma-Fix's demonstration studies.
    In conclusion, I would like to state for the record there 
can be no public acceptance when the same consultant recommends 
that Perma-Fix should upgrade its existing process equipment 
and address current problems before committing to process VX 
hydrolysate. There can be no public acceptance when the process 
of treating VX hydrolysate while being on--while based on 
apparently scientifically sound steps has not been proven 
effective on a larger scale.
    There can be no public acceptance when the General 
Accounting Office issued a report in September 2003 criticizing 
the U.S. Army and the Department of Defense and their weapons--
excuse me. I am sorry. U.S. Army and Department of Defense for 
their management of the entire chemical weapons destruction 
program.
    This concludes my prepared statement. Thank you for the 
opportunity for appearing before the committee.
    Mr. Turner. Thank you very much.
    Next we will hear from Mary Johnson, who as a citizen of 
Jefferson Township has been one of the leaders of the 
opposition and is a member of Citizens for the Responsible 
Destruction of Chemical Weapons of the Miami Valley.
    [The prepared statement of Ms. Jones follows:]

    [GRAPHIC] [TIFF OMITTED] T3283.007
    
    [GRAPHIC] [TIFF OMITTED] T3283.008
    
    [GRAPHIC] [TIFF OMITTED] T3283.009
    
    [GRAPHIC] [TIFF OMITTED] T3283.010
    
    Ms. Johnson. Thank you for inviting me to testify today. I 
am Mary Johnson, a citizen of Jefferson Township and a member 
of the Citizens for the Responsible Destruction of Chemical 
Weapons of the Miami Valley. I am a retired registered nurse 
and certified nurse practitioner. I have been requested to 
speak on my experience with public acceptance.
    For public acceptance to occur residents must be informed. 
On January 23, 2003 an open-house meeting concerning a VX 
hydrolysate destruction plan was held in Jefferson Township by 
Perma-Fix after it had already received its contract from the 
Army. No great effort was seen to notify residents of the 
impending open-house meeting. My friend Willa Bronston 
contacted me. At the open-house meeting held during the day and 
ending at 6 p.m. there was small group sharing only. Folders of 
information were distributed, representatives of the Army, 
Parsons and Perma-Fix reassured us that nothing harmful 
remained in VX hydrolysate.
    Later Ms. Bronston and I discovered--I paraphrase--under 
certain conditions VX byproducts can revert to the VX agent. 
Plus the following: VX is so toxic that it takes only 6 to 10 
milligrams to kill in 15 minutes. Four basic methods are used 
to destroy VX--incineration, supercritical water oxidation, 
neutralization and biodegradation. All four of the basic 
methods are experimental and have major problems. None of the 
four methods had long-term studies to demonstrate safety 
standards. VX is an organophosphate that can interrupt fetal 
development producing birth defects, cause nervous system 
illnesses such as memory loss, Alzheimers, hyperactivity, 
attention deficit, multiple sclerosis and breathing problems, 
among others.
    We took this information from the trustees of Jefferson 
Township to the county commissioners to political 
representatives. Hugh McGuire invited us to his group meeting 
with Laura Rench, Michelle Cooper and later Jane Forrest 
Redfern. We joined and we named ourselves Citizens for the 
Responsible Destruction of Chemical Weapons of the Miami 
Valley.
    Because the contract between the Army, Parsons and Perma-
Fix called for community acceptance, we focused on gaining 
resolutions from neighboring communities, agencies and social 
groups in opposing the plan. We obtained legal counsel, Mr. 
Ellis Jacobs of Legal Aid Society of Dayton. We went everywhere 
to discuss this issue, because it affected everyone in our 
midst.
    Our questions were not answered concerning criteria for 
company selection. Only a few first responders along the truck 
route were oriented. There was no response to city of Dayton 
Water Department manager, Donna Winchester's critical questions 
until long past her deadline. No answers were given on April 
10, 2003 at the accountability meeting attended by greater than 
200 individuals. As early as March 14, 2003, our attorney, Mr. 
Jacobs, filed a Freedom of Information Act request with the 
Army seeking information about the process used for choosing 
Perma-Fix, scientific information to process VX hydrolysate and 
information about VX hydrolysate. To date, no information has 
been received as a result of that request.
    The Ohio Environmental Protection Agency and Regional Air 
Pollution Control Agency told us there were no rules nor 
permits to prevent VX hydrolysate from coming to our community. 
Numerous nuisance violations have already been assessed against 
Perma-Fix. The fumes emitted from Perma-Fix makes one's head 
reel with disorientation and dizziness, provoking nausea and 
sometimes vomiting.
    Further, representatives of the Army, Parsons and Perma-Fix 
said the VX hydrolysate plan could not be carried out in 
Indiana because, ``the expense was too high, the standards were 
too stringent and the oversight too great.'' After sharing this 
information with all jurisdictions and agencies encountered, 37 
neighboring municipalities and agencies passed resolutions 
opposing this plan. Dr. Bruce Rittmann, the expert selected by 
Montgomery County Commission confirmed our assessment that this 
project had too many unanswered questions and too many risks to 
be performed in a residential area.
    In conclusion, we support the government's effort to 
destroy these weapons of mass destruction, but not in a 
residential area or where children will be placed at risk. We 
recommend that the local, State, Federal Governments and 
agencies collaborate with citizens, scientific experts and the 
military to resolve this issue.
    I thank you all for inviting me to speak.
    Mr. Turner. Thank you, Ms. Johnson.
    [Applause.]
    Mr. Turner. The Chair has reminded me that this being a 
public hearing it would be inappropriate for us to have 
applause.
    Mr. Shays. Put the blame on me. [Laughter.]
    That is very necessary, frankly.
    Mr. Turner. I appreciate that reminder.
    Next we will have Ellis Jacobs of the Legal Aid Society.
    [The prepared statement of Ms. Johnson follows:]

    [GRAPHIC] [TIFF OMITTED] T3283.011
    
    [GRAPHIC] [TIFF OMITTED] T3283.012
    
    [GRAPHIC] [TIFF OMITTED] T3283.013
    
    [GRAPHIC] [TIFF OMITTED] T3283.014
    
    Mr. Jacobs. Mr. Chairman, thank you very much for bringing 
the subcommittee hearing here today. It may surprise you to 
know this, but we do not get a lot of this kind of attention 
from Washington, and we certainly do appreciate it. Congressman 
Turner, you answered the call. The community expressed their 
concerns to you and you were there and pursued this issue. I 
thank you and I know the entire community thanks you.
    Let me first--it has been my honor to represent the 
community organization that has taken an interest in this 
issue. Let me first say that everybody in this community thinks 
it is an important task to destroy the VX nerve agent that is 
stored at the Newport Chemical Weapons Depot. We think that it 
should be destroyed as quickly as possible, but it was never 
necessary to ship the VX hydrolysate offsite in order to pursue 
the accelerated neutralization schedule. And you can see that 
by the fact that it will not be shipped today is not going to 
delay the destruction of the VX at Newport by 1 day, by 1 
minute. The Army always had available to them the option of 
destroying the VX as quickly as they were able and then storing 
the VX hydrolysate onsite until they were prepared to take that 
second step. Hopefully that is what the Army will do now. And 
as soon as they are ready to proceed with the destruction of 
the VX they will be able to do that. No delay is necessary and 
no delay is warranted.
    And I should note that the VX that has been stored was 
created at the Newport Chemical Weapons Depot in the 1960's. It 
has been stored safely there for 40 years. At that site is a 
skilled work force that knows how to handle this substance, who 
is experienced in handling the substance. And the Army's 
original plan that Congressman Turner alluded to was a good 
plan. They need to go back to Plan A.
    When this community first heard about the attempt to bring 
it here, the VX hydrolysate, we said to ourselves, is it a good 
idea to take VX hydrolysate, 900,000 gallons of it, load it 
into tanker trucks, drive it down narrow, rural roads across 
busy interstate highways, up West Third Street in the middle of 
our community and treat it, using an experimental process at a 
facility, Perma-Fix, that has a very problematic environmental 
record, in the middle of a densely populated neighborhood.
    Well, the answer to us was obvious. People around me and 
the people I met said it is a no-brainer. I think the question 
that is worth asking is because we know the Army certainly has 
many good brains at its disposal, how was such a decision made, 
and were there opportunities to avoid making such an 
inappropriate decision that were not taken.
    And I would submit that there were at least three legal 
safeguards that had the Army followed them, they would never 
have made this inappropriate decision. And I will briefly go 
through each of them.
    The National Environmental Policy Act [NEPA], requires the 
Army and all Federal agencies, when they are undertaking major 
Federal actions that can impact the environmental, to do 
environmental impact statements. And in fact, the Army 
recognized that destroying VX nerve agent and destroying the VX 
hydrolysate is such a major action and so the Army did an 
environmental impact statement for Indiana. And I hold up a 
copy of it. As you can see, it is a substantial document--I 
resisted the temptation to put it into the record--a 
substantial document wherein they looked at everything that you 
should look at for just such a project. They looked at the 
nature of the topography, they looked at who lives nearby, they 
looked at what the emergency response capabilities were of the 
people that live nearby.
    What happened? Did they ever do such an environmental 
impact statement or update or supplement when they changed the 
plan and decided to bring the second half of this to Dayton? 
They did not. Clearly the law required them to do so, but this 
was a legal safeguard that they ignored as they moved forward 
with this idea.
    Another legal safeguard can be found right in the text of 
the law that mandates that they destroy these chemical weapons. 
It first appeared in the 1986 Department of Defense 
Authorization Act, Section 1412. And this act clearly reflects 
the concern of the Congress at the time that this sort of 
activity be handled in the most environmentally sensitive way. 
How does it reflect it? Very specifically. It says that in 
destroying these chemical weapons, you have to do it with 
maximum protection of the environment and in facilities 
designed solely for destroying chemical weapons. That's what 
you said, that is what Congress told the Army to do back in 
1986. The Army ignored that. Clearly Perma-Fix is not a 
facility designed solely for destroying chemical weapons. 
Unfortunately, there was one court case where a private group, 
a citizens group, tried to enforce that law. The court never 
reached the merits of that contention, but they said that there 
was no implied private right of action. In other words, the 
Federal Government can enforce the law, but private citizens 
could not. Unfortunate because clearly the congressional intent 
was we want you to build facilities and do it somewhere where 
people are not around. They ignored that.
    And then finally, the final safeguard that I want to talk 
about today is the contract that has been referred to several 
times already here today. I brought a copy of it, I am afraid 
all of my documents have grown beards over time, but here it 
is. It again is a substantial document. And while destroying 
chemical weapons is a lot like brain surgery, interpreting a 
contract is not. Two simple things--you look at the specific 
language and you look at the context. The specific language, 
and I think it is remarkable language and very good language, 
talks about honoring public acceptance, getting and keeping 
public acceptance.
    And then the context within which that appears is a 
contract that requires the company to inform the community 
about what they are doing. And in fact, pays them handsomely to 
do that. Clearly the intent of this contract was that the 
company would seek public acceptance and in the absence of it, 
it would not go forward.
    Again, this community resoundingly rejected this thing and 
despite this contract, the Army had a difficulty turning 
around, as they should have.
    Three opportunities, three legal safeguards that the Army 
ignored. It is unfortunate. It brings us back to the question 
of why. Why was such an inappropriate decision made. I do not 
know and it is certainly a worthwhile question for the Army. 
Clearly Congress, NEPA and the act requiring the destruction of 
these chemicals wanted it to be done in the method most 
protective of the environment. Clearly the contract was 
designed to ensure that the community where this was going to 
be done would be accepting of it. But that was not done.
    I think the Army has a lot of questions to answer about why 
they choose to proceed as they did in this particular 
circumstance.
    Thank you so much for bringing your committee hearing here. 
Thank you for the opportunity to testify.
    Mr. Turner. Thank you, Mr. Jacobs.
    Next we will hear the testimony of Dennis J. Bristow, 
coordinator, Dayton Regional Hazardous Materials Response Team.
    [The prepared statement of Mr. Jacobs follows:]

    [GRAPHIC] [TIFF OMITTED] T3283.015
    
    [GRAPHIC] [TIFF OMITTED] T3283.016
    
    [GRAPHIC] [TIFF OMITTED] T3283.017
    
    [GRAPHIC] [TIFF OMITTED] T3283.018
    
    [GRAPHIC] [TIFF OMITTED] T3283.019
    
    [GRAPHIC] [TIFF OMITTED] T3283.020
    
    [GRAPHIC] [TIFF OMITTED] T3283.021
    
    [GRAPHIC] [TIFF OMITTED] T3283.022
    
    [GRAPHIC] [TIFF OMITTED] T3283.023
    
    [GRAPHIC] [TIFF OMITTED] T3283.024
    
    [GRAPHIC] [TIFF OMITTED] T3283.025
    
    [GRAPHIC] [TIFF OMITTED] T3283.026
    
    [GRAPHIC] [TIFF OMITTED] T3283.027
    
    [GRAPHIC] [TIFF OMITTED] T3283.028
    
    [GRAPHIC] [TIFF OMITTED] T3283.029
    
    [GRAPHIC] [TIFF OMITTED] T3283.030
    
    [GRAPHIC] [TIFF OMITTED] T3283.031
    
    [GRAPHIC] [TIFF OMITTED] T3283.032
    
    [GRAPHIC] [TIFF OMITTED] T3283.033
    
    [GRAPHIC] [TIFF OMITTED] T3283.034
    
    [GRAPHIC] [TIFF OMITTED] T3283.035
    
    [GRAPHIC] [TIFF OMITTED] T3283.036
    
    [GRAPHIC] [TIFF OMITTED] T3283.037
    
    [GRAPHIC] [TIFF OMITTED] T3283.038
    
    [GRAPHIC] [TIFF OMITTED] T3283.039
    
    [GRAPHIC] [TIFF OMITTED] T3283.040
    
    [GRAPHIC] [TIFF OMITTED] T3283.041
    
    Mr. Bristow. Thank you, Mr. Turner. I am sorry I caused a 
little bit of disruption. I had to leave, we had an incident 
going in town.
    In my testimony I will reference Perma-Fix quite a bit 
because the majority of my dealings were with officials from 
Perma-Fix. But I believe that they were answering questions and 
maybe their lack of information that was provided to us was 
because of what they were being told by Parsons and the U.S. 
Army. So I just wanted to make that clear before I start.
    My first knowledge of the proposed neutralization/disposal 
of VX hydrolysate at Perma-Fix came from a local 11 o'clock 
newscast. the next day I received calls from various agencies 
in the Dayton area inquiring if I had further information about 
this news story.
    I waited a few days and after not being contacted by Perma-
Fix, I went to the Perma-Fix facility and inquired about the 
news story. I was escorted into the plant and was introduced to 
a group of individuals said to be working on the project. I 
stated my concerns that none of the surrounding fire chiefs or 
myself had been contacted about the proposed disposal project. 
I was informed that the news media had caused problems for the 
project. The plans were to inform interested parties prior to 
the news media airing this type of story.
    I expressed the need for Regional Haz-Mat to be involved 
with the project because of our providing emergency response to 
all Montgomery County Fire Departments and my position of 
emergency coordinator for the local emergency planning 
committee. I was advised that someone from the facility would 
be in touch.
    A few days later, I received a call from I believe Tom 
Trebonik. The gentleman advised me he was heading up the 
project for Perma-Fix. During this conversation, I emphasized 
my concern about providing proper training and equipment to the 
fire departments and our haz-mat team. This material would be 
different from other types of materials we have dealt with. It 
would first be identified as a chemical warfare agent even if 
treated prior to transport to Dayton. I offered to help in any 
way with providing information and training to any and all 
first responders in Montgomery County. I informed Mr. Trebonik 
that I would like to attend sessions or meetings they may have 
with local first responders, and I was assured that I would be 
kept informed of meetings.
    A few weeks later, I was invited to attend a meeting at the 
plant that included representatives from the Ohio EPA, Ohio 
Highway Patrol and also the Highway Patrol's Haz-Mat 
Enforcement Agency, along with Montgomery County Health and 
Sanitary Departments. A picture was being painted by Perma-Fix 
representatives that was intended to make us believe that 
nothing could go wrong and there was no need for much concern. 
My position is to be the devil's advocate at this type of 
meeting and ask the tough questions. I did ask questions about 
the physical characteristics of the material, the plan for 
catastrophic releases of the material and the impact on the 
surrounding area if a release would take place. I inquired 
about the impact on the aquatic life if a catastrophic release 
would occur into a waterway during transport. My greatest 
concern was not the immediate impact on the environment, but 
long term devastation to our waterways and natural resources in 
general. I then asked questions about the impact on the 
neighborhood surrounding the Perma-Fix facility, both from 
routine processing and in the event of an unplanned release.
    After asking these questions, I sensed reluctance on the 
part of Perma-Fix to include me in planned meetings with local 
fire departments. On numerous occasions, I received inquiries 
from representatives from the Jefferson Township and Trotwood 
Fire Departments asking if I would be attending training 
sessions and tours at the Perma-Fix facility. Even though I had 
asked Mr. Trebonik to include Dayton Regional Haz-Mat in these 
sessions, we were not informed directly by Perma-Fix. It was 
only because of our excellent relationship with the fire 
departments involved that they contacted me and informed me of 
these meetings.
    I, along with other members of the regional team, attended 
these sessions and attempted to point out some of the critical 
points and the experimental basis of the disposal process. The 
information that was constantly being given to first responders 
was the VX hydrolysate is no different than a one quart can or 
bottle of Drano drain cleaner. This is not an accurate 
description of VX hydrolysate.
    In March of this year, I was asked to serve on the Perma-
Fix Citizen Advisory Committee. While serving on this 
committee, I continued to ask the questions I had been asking 
since the original meeting at their facility. In my opinion, 
issues and answers to not only my questions but also those of 
others were often avoided, and sometimes smoke screens thrown 
up to dodge these questions. Occasionally questions would arise 
inquiring about the operation of the Perma-Fix facility, and no 
one at the meeting would have information. This occurred with 
Mr. Trebonik and the facility manager, Mr. McEldowney, present. 
These questions were general in nature, and one would presume 
those in attendance from Perma-Fix would have been able to 
provide these answers.
    It was clear to me that Perma-Fix did not intend to share 
information with us. It is also quite clear that the public 
will not accept the disposal of VX hydrolysate, as the disposal 
would be occurring within a few hundred feet of people's homes.
    Through all these meetings and conversations with Perma-Fix 
officials, I was treated with respect, and they were always 
courteous.
    Respectfully submitted, Dennis J. Bristow.
    Mr. Turner. Thank you.
    Mr. Brueggeman.
    [The prepared statement of Mr. Bristow follows:]

    [GRAPHIC] [TIFF OMITTED] T3283.042
    
    [GRAPHIC] [TIFF OMITTED] T3283.043
    
    Mr. Brueggeman. I am here representing Montgomery County 
Board of Commissioners.
    The county had to address two different questions. The 
first issue involved public acceptance based on the public 
health and welfare of our citizens and environment. The second 
involved the discharge of the treated waste into sewers to be 
treated at our Western Regional Treatment Plant. Many of the 
same questions asked about the health and welfare of our 
citizens were asked concerning the potential impact of this 
waste on our wastewater treatment process and the surface 
waters.
    When we were first notified that Perma-Fix would possibly 
treat the VX hydrolysate, the Commissioners and the Sanitary 
Engineering Department staff raised the same questions asked by 
the public. The Army and Perma-Fix assured us that public 
acceptance was a major determining factor in the final decision 
to extend Perma-Fix's contract from the lab testing to full 
scale operations.
    In June, the County Commissioners passed a resolution 
opposing the transporting and treatment of hydrolysate at the 
Perma-Fix facility located in Jefferson Township. This 
resolution was based on the Commissioners' concern over the 
safety of their citizens and the quality of the environment and 
the many unanswered questions. They also were concerned because 
impact of the treatment of the hydrolysate on Jefferson 
Township and on other Montgomery County communities was 
uncertain. Yet it appeared as if the Army, Parsons and Perma-
Fix intended to continue pursuing the transportation and 
treatment of the VX hydrolysate.
    We knew very little concerning the impact the treatment of 
this waste product would have on the health and welfare of the 
local community, on the county owned wastewater treatment plant 
and ultimately on the surface water environment of the great 
Miami River. In order to better understand these potential 
impacts, we hired an outside consultant, Dr. Bruce E. Rittmann, 
to conduct a scientific review of the treatment process 
proposed by Perma-Fix. Dr. Rittmann is a professor at 
Northwestern University Illinois and has an extensive 
background in the treatment of hazardous waste and biological 
treatment of organic waste.
    Perma-Fix's proposed pretreatment process involves two 
phases, an oxidation phase and a biological degradation phase. 
The first phase of the treatment is an oxidation process. This 
process removes thialamine, one of the three Schedule II 
compounds. Removing thialamine eliminates the most odorous 
compound and eliminates any possibility of reconstructing the 
VX nerve agent once the pH is reduced. Lowering the pH also 
reduces the caustic problem.
    Based on this, the recommendation was made that the first 
oxidation treatment process should be completed at the facility 
in Newport, IN, regardless of where any additional treatment is 
conducted.
    The second phase of the treatment is a biological treatment 
of the aqueous portion. According to the Army, ``During 
biological treatment, bacterial would digest the more complex 
compounds in hydrolysate to form simpler compounds such as 
carbon dioxide and water.'' EMPA and MPA are the two remaining 
Schedule II compounds that are referred to by the Army.
    According to Dr. Rittmann's evaluation, this did not occur. 
Very little reduction, if any, occurred during the biological 
treatment process in the laboratory. In order to reach the 
concentration levels, Perma-Fix mixed the compound with other 
waste, reducing the concentration by dilution. Dr. Rittmann's 
report indicated two of the Schedule II compounds, EMPA and 
MPA, were partially reduced in the aqueous component during the 
oxidation step, but were merely diluted during the 
biodegradation phase. This dilution enabled Perma-Fix to claim 
they met the biodegradation standard and the discharge levels 
required by contract.
    The Army contends it is committed to safely destroying the 
VX agents stockpiled in Newport, which I do not question. They 
also contend all the major organic constituents of hydrolysate 
have been proven in a treatability study to be successfully 
removed or destroyed in the treatment criteria. Theoretically, 
biological degradation of the organic compounds is possible. 
The Army has inferred in a letter to one of our citizens dated 
July 31, 2003 that Perma-Fix and the Army will not discharge 
untreated chemicals or hydrolysate into the sewers or rivers. 
They indicated during biological treatment, bacteria will 
digest the more complex compounds in hydrolysate to form 
simpler compounds such as carbon dioxide and water. These 
statements are misleading in that EMPA and MPA would be 
discharged.
    There are no studies indicating these compounds would be 
completely removed in the county's wastewater treatment plant. 
There are no studies to indicate what these compounds would do 
once released into our rivers. This is a major question that 
has been asked and never answered. The dilution of the two 
compounds and the lack of an environmental toxicity test are 
the main reason Perma-Fix was denied the privilege of 
discharging the waste into our system.
    In addition, the Army has not provided all of the 
information requested by the county. The county prosecuting 
attorney requested on July 25, 2003 certain documents pertinent 
to the proposal by the Army to transport and treat the VX 
hydrolysate in Montgomery County. By letter dated August 13, 
2003, the Army advised the county to resubmit the request for 
these documents. This was done on September 15 by letter and 
electronic fax. To date, nothing has been received.
    There is a lack of public acceptance, which on the surface 
appeared, until recently, to be ignored by the Army. The Army 
has not provided answers to questions asked by the officials 
and citizens.
    I would thank you for allowing us to present our views 
concerning this issue before your committee.
    [The prepared statement of Mr. Brueggeman follows:]

    [GRAPHIC] [TIFF OMITTED] T3283.044
    
    [GRAPHIC] [TIFF OMITTED] T3283.045
    
    Mr. Turner. Thank you all for your testimony. At this 
point, we will go to questions from the committee and we will 
begin with a 10-minute round of questions and begin with our 
chairman.
    Mr. Shays. First, Mr. Chairman, thank you again for 
pointing out the need to have this hearing. And I would say to 
the panelists, thank you for your very concise statements and 
to the point statements. I have conducted 16 years of hearings 
and the presentations by this panel was really quite 
outstanding.
    I also want to say for the audience as well. This is a 
congressional hearing, it is not a community meeting. We keep a 
transcript and we want to respect the comments of all the 
witnesses, both the first and second panel, and this committee 
is determined that both panels know this process is a fair one, 
one designed to get information and not designed to, you know, 
move public pressure one way or the other. So that is the basis 
for the hearings.
    The basis here is frankly from my standpoint as chairman of 
the subcommittee that we need to understand this process. The 
experience in Dayton is important for you; for the committee, 
it is important for us to know how it impacts all communities 
in the country, how do we achieve the objective we want. All of 
us, and the panelists have said this, we know we have chemical 
weapons. Why we ever made them in the first place, you know is 
obviously open to question, but we did as a country and as a 
world community agree that chemical weapons needed to 
stipulation. We had a convention that agreed that they would be 
and that we would then go through the process of destroying 
these horrific weapons of mass destructions. And we want these 
weapons to be destroyed, the chemical weapons. But we wanted to 
follow a process that is fair and safe and so on.
    I am going to ask some questions that will be a little 
redundant to some because some made the point in their 
statement, but I would like to get it all together in the form 
of keeping all the panelists responding to each kind of issue.
    I would like to know--we will go with you, Ms. Neal, and 
right down, when did you learn that Perma-Fix was going to be 
involved in this process?
    Ms. Neal. We were informed by a citizens group or residents 
from Jefferson Township. They officially came to our City 
Commission meeting, making us aware of the fact that a contract 
had been let and that there was going to possibly be movement 
of this chemical. We were not informed officially through 
letter that this process was going to take place by Perma-Fix 
or any other party.
    Mr. Shays. By Perma-Fix.
    Ms. Neal. We were not. It was clearly by volunteers and 
residents of the community who first made us aware of this.
    Mr. Shays. Ms. Jones, how were you notified, again? When 
did you first learn?
    Ms. Jones. I am trying to see if I can find----
    Mr. Shays. I will come back to you. Ms. Johnson.
    Ms. Johnson. I found out on January 23, my friend Willa 
Bronston, called me and said did you know there is an important 
meeting taking place tonight. No, I did not. It was late in the 
afternoon, I was chilling. And so here I had to jump into some 
clothes, prepare and get out of there, and I did not know 
anything about it. I did not know what VX was.
    Mr. Shays. Thank you. Mr. Jacobs.
    Mr. Jacobs. I learned I believe in February from Mary and 
other people involved in the group.
    Mr. Shays. Mr. Bristow.
    Mr. Bristow. I really do not have a date, it was a local 
news station, WHIO, ran a story on the 11 o'clock news and it 
said ``Deadly Chemical Agent to be disposed of in Montgomery 
County.''
    Mr. Shays. Explain to me your responsibility. It says 
Dayton Regional Hazardous Materials Team.
    Mr. Bristow. We are a hazardous materials team that 
actually serves the 41 fire departments in Montgomery and 
Greene County. We are made up of about 150 members, those 150 
members come from the 40 different fire departments in the two 
counties. The municipalities, all 40 jurisdictions in the two 
counties, pay a per capita fee to Dayton Regional Haz-Mat and 
then we actually respond to the hazardous materials incidents 
and do the mitigation, stopping, plugging the leak, that type 
of thing.
    Mr. Shays. Mr. Brueggeman.
    Mr. Brueggeman. Yes, sir. We learned early on in December. 
Perma-Fix, along with officials from the Township, met with our 
staff to inform them of what they were considering. At that 
meeting, I also recommended that they talk to the County 
Administrator, they set up a meeting I believe, the following 
week. I am not sure on the dates, but it was early in December.
    Mr. Shays. And you learned from whom again?
    Mr. Brueggeman. Perma-Fix and the Township officials, I am 
not sure if there was a Township trustee there, but there was 
an official from the Township.
    Mr. Shays. Again going back, what steps--excuse me, Ms. 
Jones.
    Ms, Jones. Jefferson Township Trustees became aware of it 
the latter part of June-July 2002.
    Mr. Shays. Thank you. What steps did each of you take--and 
maybe it does not involve some of you as much. Mr. Jacobs, you 
basically became involved, attorney Jacobs, by residents and 
organizations that engaged your services.
    Mr. Jacobs. That is correct.
    Mr. Shays. OK.
    But I would like to know what steps did you take to solicit 
information about the specifics of what was happening?
    Ms. Neal. After having the presentation made before the 
City Commission, we directed our city manager who then directed 
our staff who is responsible for environmental issues to 
followup and have some initial concerns and feedback and a 
report. And we also had our environmental advisory board to 
look into the issue and make some recommendations as to what 
the position of the city of Dayton should be.
    Mr. Shays. Ms. Johnson.
    Ms. Johnson. I am sorry, would you repeat the question?
    Mr. Shays. Yes, I would like to know what steps did you 
take to get information.
    Ms. Johnson. Oh, we did a thorough research, we researched 
everything. And our main force was the National Research 
Council publication that had--the first article that I read 
about it was ``Super Critical Water Oxidation'' and it was a 
report on the method, the problems, the process. And there were 
major problems that occurred in Corpus Christi, Texas. And they 
were trying to scale up the method of super critical water 
oxidation and the salts that precipitated out destroyed the 
reactor.
    Mr. Shays. Mr. Bristow.
    Mr. Bristow. I went directly to Perma-Fix after the story 
on the 11 o'clock news. I waited a couple of days and had 
different fire chiefs calling me asking me if I had been 
informed.
    Also part of my position is the emergency coordinator for 
the local emergency planning committee, which is part of the 
State emergency response committee. And we have always had a 
good working relationship, Dayton Regional Haz-Mat has always 
had a working relationship with Perma-Fix. They provide lab 
facilities for unknown materials. So I felt comfortable with 
just walking in the front door and asking and they were very 
honest and open at that time with what they were doing, and 
explained to me that the process of informing the public really 
was circumvented by the news story that occurred the night 
before or a couple of days before.
    Mr. Shays. Thank you.
    Mr. Brueggeman. We had asked Perma-Fix for some of the 
information, as much literature as they had on it. They gave us 
literature, they gave us literature on some of the other 
processes and identification of the VX agent and its components 
and the hydrolysate.
    In addition to that, we got on the Internet and pulled off 
as much literature as we could. Many of the documents were 
similar to what was given to us by the public later on. Ms. 
Johnson and her group had done a good job of research also, 
which reinforced many of the things that we had.
    We then, because of the unanswered questions in our mind 
and the limited knowledge, started to look for an expert who 
could better help us identify what this was going to do.
    Mr. Shays. Could you for the record explain the 
significance of Schedule II compounds?
    Mr. Brueggeman. It is my understanding--I am not an expert 
in this area, but it is my understanding that when you break 
down the hydrolysate or when you form VX agent, you have three 
basic, what they consider, Schedule II compounds that are 
necessary to form the VX agent. When they hydrolycize the VX 
nerve agent, it breaks down into these Schedule II compounds 
and there are some other side compounds that are broken down.
    It is my understanding that if they lower the pH, there is 
a possibility, under certain conditions, that it will 
reconstitute and reform VX nerve agent. So you have to have all 
three of the Schedule II compounds available to do that, so if 
one is missing, it cannot be reconstituted.
    Mr. Shays. OK. Let me just ask each of you what kind of 
cooperation you felt you got from the Army, if you contacted 
the Army and from Perma-Fix. I do not need a lot of detail, but 
what kind of cooperation you received from each as you 
inquired, if you did inquire from either.
    Ms. Neal. Our staff inquired and I understand they provided 
limited information.
    Mr. Shays. From the Army?
    Ms. Neal. Yes.
    Mr. Shays. And from Perma-Fix?
    Ms. Neal. Yes.
    Mr. Shays. OK.
    Ms. Jones. The Township Trustees and administration had 
spoken with Perma-Fix on several occasions and one was 
indicated in the outline that we had asked that they would have 
more public involvement. I attended many of Perma-Fix and 
Parsons and the U.S. Army forums and at one particular meeting 
which was early on in March, I think it was March 18, it was 
right before they----
    Mr. Shays. I need you to sit forward----
    Ms. Jones. I am sorry.
    Mr. Shays. We want to make sure the transcriber is getting 
this.
    Ms. Jones. It was right before them considering the 
citizens advisory panel.
    Mr. Shays. Let me just ask, I do not need too much detail 
right now. What I want to just know in general is how you would 
rate the cooperation of both the Army and Perma-Fix in terms of 
your outreach to get information. I would want to know if you 
had information outstanding from the Army or Perma-Fix. I am 
going to actually start over again since I asked the question a 
little differently, with your permission. I am beyond my 10 
minutes here.
    Ms. Neal, how would you decide the cooperation of the 
Army--your staff and so on--and Perma-Fix? Was it satisfactory 
or less than satisfactory?
    Ms. Neal. Less than satisfactory.
    Mr. Shays. From both the Army and Perma-Fix?
    Ms. Neal. According to the information I received, yes.
    Mr. Shays. And do you still have requests outstanding?
    Ms. Neal. My understanding is there are still unresolved 
issues and unanswered questions.
    Mr. Shays. Thank you. Information that you have requested, 
you have not received.
    Ms. Neal. Correct.
    Mr. Shays. Is that the same experience you have had, Ms. 
Jones?
    Ms. Jones. Unsatisfactory.
    Mr. Shays. Both the Army and----
    Ms. Jones. Perma-Fix, yes.
    Mr. Shays. Thank you. Ms. Johnson. You are not speaking in 
the capacity of a government official, you are speaking as a 
community activist?
    Ms. Johnson. That is correct.
    Mr. Shays. OK.
    Ms. Johnson. Yes, it is unsatisfactory and I stated in my 
statement March 14 was filed a Freedom of Information Act 
request with the Army and we never received any response to 
this day.
    Mr. Shays. Let me be clear. Mr. Jacobs, do you work in 
conjunction with Ms. Johnson or----
    Mr. Jacobs. I do. I represent the group whose name is too 
long to say that Mary is part of.
    Mr. Shays. OK, thank you. So maybe, Mr. Jacobs, you could 
provide a little more detail on this issue.
    Mr. Jacobs. On March 14, I sent a Freedom of Information 
Act letter to the Army asking for what I thought was relatively 
routine information about the decisionmaking process, how did 
they decide to send it here, a copy of the contract, a copy of 
standards, all the stuff that you would expect that you would 
want to see. And while there was some correspondence back and 
forth, to this date, I have not gotten the first document from 
the Army as a result of that request.
    Mr. Shays. OK. Let me just say for the record, any request 
that the Commission has made to the Army or to any other one 
involved in this process, whatever the decision is on whether 
or not to move forward in Dayton, we still will want that 
information, because this is an effort to understand the 
process and the process is important for us to understand. So 
we will keep working to understand that and we will try to 
assist you in getting information that you need to kind of 
close the record here.
    Mr. Jacobs. Thank you.
    Mr. Shays. Mr. Bristow.
    Mr. Bristow. Initially, there was great cooperation I think 
and our presence was welcomed and once they learned that we 
would not accept the canned answers we were getting and wanted 
more specific answers, the cooperation waned quite a bit.
    Mr. Shays. Both with the Army and Perma-Fix or just with--
was your contact with both or just with Perma-Fix?
    Mr. Bristow. Actually the contact was with Perma-Fix and it 
is just my opinion, you know, that the responses I was getting 
from Perma-Fix were just what the Army wanted them to release.
    Mr. Shays. Fair enough. Whether that is in reality true, 
the fact that is your perception is important to have on the 
record.
    Mr. Bristow. Thank you.
    Mr. Shays. Thank you.
    Mr. Brueggeman. Our cooperation with Perma-Fix or Perma-
Fix's cooperation with us was very good. When we would ask for 
information, they would give it to us if they had it available. 
As the process went on, it appeared as if they were also asking 
permission to release the information to us and sometimes that 
was slow. But I think their intent to cooperate with us and our 
expert was great. The cooperation with the Army, as I 
indicated, we had asked for information and it was not 
provided. And it appears as if the Army's comments on the side 
were not very cooperative.
    Mr. Shays. Thank you. Let me ask a question just out of my 
ignorance in not knowing your government. Is the Jefferson 
Township part of your county department? In other words, do you 
do work for Jefferson, is there a connection there?
    Mr. Brueggeman. No, the county is the broader organization 
which is very different than municipalities in jurisdiction. 
The Township is a separate entity.
    Mr. Shays. But it is----
    Mr. Brueggeman. It is within Montgomery County, yes.
    Mr. Shays. But they depend on you to do the Engineering 
Department----
    Mr. Brueggeman. No, the reason why we are involved with 
Jefferson Township is that we have a regional wastewater 
treatment plant and the waste from Jefferson Township in that 
area would come into our treatment plant.
    Mr. Shays. I see.
    Mr. Brueggeman. So that is why we would be involved.
    Mr. Shays. Thank you. Thank you very much for your 
responses and thank you for your generosity in letting me go 
beyond my 10 minutes.
    Mr. Turner. Any time, Mr. Chairman.
    Mr. Jacobs, I want to talk to you for a moment about the 
environmental impact study that you were talking about. You 
were describing an environmental impact study that had been 
performed pretty extensively for Newport, IN, and that there 
was not, correspondingly, an environmental impact study for 
Dayton. And as you know, one of the issues that we ran up 
against when we were looking at the issue of public acceptance 
is that at one point an Army response that public acceptance, 
when it was clear it was not coming, would be redefined to be 
regulatory compliance.
    You were raising the environmental impact study issue is 
part of a regulatory compliance process. What I would ask you, 
for those who might not know, what types of issues might be 
different from Newport, IN and Dayton, OH that would have to be 
taken into consideration if an environmental impact study was 
done for this particular process.
    Mr. Jacobs. Sure. First let me say that the law, the NEPA 
law that requires you to do an environmental impact study is 
primarily a procedural law. So procedurally the Army would have 
been required to get with all of the political leaders in our 
area to meet and have detailed meetings with all of our 
environmental regulators and to gather information from all of 
them. If they had done that, then some of the things that they 
would have learned that are clearly different in our context 
than in the Indiana context, they would have learned that this 
facility is smack dab in the middle of a densely populated 
neighborhood where 3,000 people live in Drexel, hundreds of 
thousands of people live within several miles of this facility.
    In Indiana, it is in a relatively isolated rural area. The 
Newport chemical facility itself is 10 square miles. It is 2.6 
miles from the closest population concentration which is 
Newport where 578 people live. So clearly the danger to a 
population is significantly different.
    They would have learned that the economic and racial makeup 
of the two communities is vastly different. Newport reported in 
the last census that there were no African-Americans that lived 
there. This community is 35 percent African-American. Newport 
reports 9 percent poverty rate; this community reports a 33 
percent poverty rate. So clearly very disparate communities.
    They would have found out that a stone's throw away from 
the Perma-Fix facility is the Calumet School, a school for 
people with multiple disabilities. The day I went by the 
Calumet School, I saw students there leaving, being put on a 
school bus, all of them were in wheel chairs. How would that 
school be evacuated if there was a problem there? The Calumet 
School exists a stone's throw away from Perma-Fix. I doubt 
there is anything equivalent or certainly nothing equivalent 
that was identified in the EIS in Newport.
    Here the first responder would be the Jefferson Township 
volunteer department backed up by Mr. Bristow's folks. There, 
they have highly skilled haz-mat people onsite who know exactly 
what to do. They are just right down the hall presumably from 
where they would be doing this work.
    So the differences just go on and on and I tried to detail 
them in my testimony. But had they followed through on this 
process, they would have discovered all of this stuff about our 
community and the contrast between this community and the 
community where the material has been stored and was supposed 
to have been treated could not be--the differences could not be 
more dramatic.
    Mr. Turner. In following up on the chairman's question 
concerning public outreach, I want to first read a few sections 
of the contract which I think are important, and I want to 
focus to some extent on the Army's participation.
    If you look at the contract itself, there is a statement of 
work section and then in the section labeled 3, it goes on to 
label it as a work description. And it breaks down into waste 
transport, waste treatment disposal and then there is public 
outreach support, which Mr. Jacobs indicated that in the 
contract itself, there is a separate line item for compensation 
for that specific activity of the public outreach support. It 
is pretty exhaustive. The three paragraphs that I want to read 
is subparagraph (b) first. It says: ``The contractor and 
government shall retain primary responsibility for outreach.''
    The next subparagraph in (e), it says ``Subcontractor 
outreach plans shall include an early initial subcontract 
activity involving public and government notifications and 
public sessions intended to establish a measure of public 
acceptance for planned hydrolysate transport and disposal 
work.''
    Now if you look at this section where it says ``The 
subcontract outreach plans shall'' and then what it is intended 
to do and that is to achieve public acceptance, it is not open 
to question as to whether or not that needs to be done as a 
condition for this to move forward.
    It goes on to say ``Completion of subcontract work may be 
contingent upon the establishment and maintenance of public 
acceptance throughout the subcontract period of performance.''
    The next provision is saying with the word ``may'' be 
contingent concerns the public acceptance being maintained 
throughout the period. But the initial paragraph in (e) talks 
about public acceptance having to have been achieved prior to 
going forward.
    And then if you go on to management support, 3.5 and 
subparagraph (c), it says that ``The subcontractor's program 
manager shall immediately notify the contractor's subcontract 
administrator of any conditions potentially detrimental to said 
contract work.'' And then it lists them, it lists them 
separately. It says ``public outreach acceptance issues, safety 
incidences, operational problems, regulatory issues.'' Each one 
are given equal weight and each one are broken out separately.
    If you go to the end of the contract at paragraph 6, 
performance, it says this statement, ``Initial public outreach 
activities to confirm public acceptance will commence 
immediately with notice to proceed.''
    So all of the provisions of the contract relate to an 
effort of public outreach and information. Second then, a 
confirmation that public acceptance has occurred and even 
making it a contingent provision for this to begin, and a 
possible contingency for it to continue throughout the process.
    In focusing back on the paragraph that says that the 
subcontractor and the government shall retain primary 
responsibility for outreach, I would like to focus on the 
Army's outreach efforts. To the extent that you are aware or 
have participated, I would like to know about events or 
meetings that you participated in where the Army was present 
and what their statements were with respect to public outreach 
and with respect to public acceptance.
    We will start with Ms. Neal.
    Ms. Neal. As an elected official in the largest 
municipality contiguous to Jefferson Township, there was no 
official discussion with the elected officials from the Army.
    Mr. Turner. Ms. Jones.
    Ms. Jones. There were several and I attended all of those. 
There was not a lot of dialog between the Army, Parsons or 
Perma-Fix. As I had stated in my statement here, I think that 
there was one initial one where they spoke generally to 
different aspects of the whole process, but the majority of the 
meeting ended up where the citizens who came to the meeting at 
that point, they didn't want it. So they would come to the 
meetings and the meetings would then turn into input from the 
citizens of why they opposed it and ask questions, the same 
questions that they would ask at every meeting. So there was 
not a lot of information coming from them other than the 
community trying to get them to answer specific questions 
regarding health and safety.
    So if you ask me was there a lot of dialog regarding that, 
no, because the questions were not answered.
    Mr. Turner. Ms. Johnson, contact with the Army with respect 
to public acceptance.
    Ms. Johnson. Please.
    Mr. Turner. Ms. Johnson, the question is with respect to 
public acceptance and direct contact with the Army.
    Ms. Johnson. Whenever we asked questions, we never got 
responses. They knew that we did not want it and they ignored 
us. They did not return documents that stated why they were 
coming or whatever questions that we asked about how they went 
about making their decision.
    Mr. Turner. Mr. Jacobs.
    Mr. Jacobs. I attended mostly meetings that were organized 
by the community, but the Army would be invited to make a 
presentation and the thing I recall most was the Army's 
insistence that the material is just like Drano. And after--
citizens can pull down the MSDS sheet, the material safety data 
sheet on this, and read for themselves that 30 to 50 percent of 
VX hydrolysate are these complex Schedule II compounds that are 
not just like Drano, and are in fact rather dangerous. And to 
have the Army continue that mantra undermined all of their 
credibility and made it very hard for people to believe what 
they had to say about it.
    Mr. Turner. Mr. Bristow.
    Mr. Bristow. I would just have to re-emphasize what's been 
said up to this point. It appeared that if we were willing to 
accept a PowerPoint presentation that they gave and the flavor 
of that presentation would be how this material is safe and it 
will not harm you. It was always a quart of Drano. Although it 
was a 4,000 gallon tanker coming down the road, we were to 
relate it as a quart of Drano and not only would I ask 
questions but other people on the citizens advisory panel asked 
questions, people from the audience asked questions and it was 
always the same answer continuously, this material is not 
dangerous, this material is no more than a quart of Drano. And 
after the third or fourth time, people did some research and 
they knew that was not true.
    Mr. Turner. Mr. Brueggeman.
    Mr. Brueggeman. My first contact with the Army was at a 
public meeting at Jefferson High School. The thing that 
surprised me as Parsons and Perma-Fix seemed to be prepared for 
the meeting, the Army's comments seemed as if they were unaware 
of the public outcry that was occurring and they were 
misreading the intent of what people were asking them. It 
seemed like they took a different approach than I would have 
expected anyone to take concerning that this was a public 
meeting and the people had already voiced a lot of serious 
concerns. It did not look like they were prepared for it.
    Mr. Turner. On behalf of the committee, I want to thank all 
of you for testifying, and personally as a member of this 
community, I want to thank you for all of your efforts.
    Mr. Shays. If the Chair would yield. I just want to tell 
you, Mr. Jacobs, we do have--the committee does have a copy of 
the environmental impact statement as well as the subcontract, 
and we thank you for not requesting that it be inserted into 
the record, but it will be part of the record.
    Thank you.
    Mr. Jacobs. Thank you very much.
    Mr. Shays. I would also like to thank all of our witnesses, 
you did an excellent job.
    Mr. Turner. Thank you so much.
    We will then be going to our next panel, who will be 
joining us and I will introduce them when they come to the 
table.
    On the second panel is Dr. Louis Centofanti, president and 
CEO of Perma-Fix; Mr. Michael A. Parker, Acting Director, 
Chemical Materials Agency of the U.S. Army and also testimony 
of John T. Stewart of Parsons, Inc. We will be hearing their 
responses both to the testimony that they have heard and also 
hearing their testimony.
    Gentlemen, we appreciate each of you coming here today and 
being able to provide your testimony to our committee. We will 
begin by providing you with the oath that your testimony will 
be the truth to the committee. If during your testimony or 
during the question period there is anyone that you believe 
that you will be relying on for additional information, it 
would be appropriate for them to stand also at this time and to 
be sworn in. So if you would please stand, or anyone else that 
you would like to have testifying before the committee.
    [Witnesses sworn.]
    Mr. Turner. Please note for the record that the witnesses 
have responded in the affirmative. We will begin this panel 
with Dr. Louis Centofanti, president and CEO of Perma-Fix.

 STATEMENTS OF DR. LOUIS CENTOFANTI, PRESIDENT AND CEO, PERMA-
    FIX, INCARCERATION; MICHAEL A. PARKER, ACTING DIRECTOR, 
  CHEMICAL MATERIALS AGENCY, U.S. ARMY; AND JOHN T. STEWART, 
    PARSONS INFRASTRUCTURE & TECHNOLOGY GROUP, INCARCERATION

    Dr. Centofanti. Thank you. I appreciate the opportunity to 
speak. One, I have submitted a statement which includes quite a 
bit of technical information, and I think for the committee, 
the most important is probably lessons learned. At the end, we 
have tried to summarize seven major points as we look at this 
project. If anyone else ever tries it, hopefully they will look 
at that and answer some of those questions and issues raised. I 
think, you know, the community was very diligent, worked hard 
and consistent in opposing this project, and I think raised a 
variety of issues that--many are addressed in our seven points 
in terms of things that need to be done in the future.
    As an old college professor, I guess in retrospect this 
will be a great example of a case study, if anybody ever wants 
to look at it, on how to--what should be done or should not be 
done. You know, probably from our point of view, besides the 
seven points as you really look at them, there is one very--one 
critical one that affected us the most dramatically. For this 
project, we really saw ourselves making two promises. One, our 
contact with the Army and Parsons to carry out this activity. 
The second was a promise to our community, being a good 
neighbor and a good citizen. I think early on they spoke very 
loudly and consistently that they did not want this project.
    Our problem was that, as we looked at it, we were in a box. 
We do a lot of work for the Federal Government under contract 
and a default on this contract would have been a fairly serious 
event for the whole company. At the same time, we were 
listening to our neighbors opposition in the community. So if 
we went ahead with the project, we basically threatened the 
facility; and if we backed out, we would be in default under 
the contract. I think that is addressed in one of those issues 
that in the future it is a very serious--ourselves being put 
into that sort of situation. We were in a no-win situation.
    Like I say, a lot of the issues that were raised by the 
citizen groups--are in our comments. The information, our role 
as a contractor--a subcontractor, and yet at the same time the 
Army's desire to respond to Congress and get in the middle of 
the project when theoretically we should have been the out-
front people. So as we look at this, it was a--well, just an 
unfortunate situation. It is finished. My comments are there. I 
will be happy to more address any questions later as they come 
up in terms of the points at the end, if there is such.
    Mr. Turner. Mr. Parker.
    [The prepared statement of Dr. Centofanti follows:]

    [GRAPHIC] [TIFF OMITTED] T3283.046
    
    [GRAPHIC] [TIFF OMITTED] T3283.047
    
    [GRAPHIC] [TIFF OMITTED] T3283.048
    
    [GRAPHIC] [TIFF OMITTED] T3283.049
    
    [GRAPHIC] [TIFF OMITTED] T3283.050
    
    [GRAPHIC] [TIFF OMITTED] T3283.051
    
    [GRAPHIC] [TIFF OMITTED] T3283.052
    
    [GRAPHIC] [TIFF OMITTED] T3283.053
    
    [GRAPHIC] [TIFF OMITTED] T3283.054
    
    [GRAPHIC] [TIFF OMITTED] T3283.055
    
    [GRAPHIC] [TIFF OMITTED] T3283.056
    
    [GRAPHIC] [TIFF OMITTED] T3283.057
    
    [GRAPHIC] [TIFF OMITTED] T3283.058
    
    [GRAPHIC] [TIFF OMITTED] T3283.059
    
    [GRAPHIC] [TIFF OMITTED] T3283.060
    
    [GRAPHIC] [TIFF OMITTED] T3283.061
    
    [GRAPHIC] [TIFF OMITTED] T3283.062
    
    [GRAPHIC] [TIFF OMITTED] T3283.063
    
    [GRAPHIC] [TIFF OMITTED] T3283.064
    
    [GRAPHIC] [TIFF OMITTED] T3283.065
    
    [GRAPHIC] [TIFF OMITTED] T3283.066
    
    [GRAPHIC] [TIFF OMITTED] T3283.067
    
    Mr. Parker. Good afternoon, Mr. Chairman and members of the 
committee. With the Chair's permission, I would like to submit 
the full statement for the record and just do a quick summary, 
if that would be permissible.
    Mr. Turner. That will be fine.
    Mr. Parker. I am Michael Parker, the Director of the 
Chemical Material Agency responsible for safe storage and 
disposal of our Nation's chemical weapons.
    Mr. Shays. Mr. Chairman, if he could talk just a little 
louder. I am not sure, are you hearing in the back?
    Voices. No.
    Mr. Parker. All right, I am Michael Parker, Director of the 
U.S. Army Chemical Material Agency responsible for the safe and 
environmentally compliant storage and disposal of the Nation's 
chemical weapons. Of paramount value to the Chemical Material 
Agency is the safety of our work force and the American public. 
While we have stored, and continue to store, chemical weapons 
safely for over 50 years, the ultimate risk reduction is the 
ultimate disposal of these weapons. No weapons, no risk.
    I am happy to report that over 26 percent of the 31,000 
tons of chemical--of the U.S. chemical stockpile, 83,000 tons 
of chemical agent to date have been safely disposed of. We have 
three plants in operation, on line every day, reducing the risk 
to the American public. We will have three additional plants on 
line within the year to include the Newport facility, which is 
what brings us here today. The Newport and Aberdeen sites were 
significantly accelerated after the unfortunate events of 
September 11th. This was done as a risk reduction measure 
primarily to the communities where these munitions are stored. 
The concept was to significantly streamline the neutralization 
process and dispose of the neutralized material, the 
hydrolysate, at large scale, fully permitted commercial 
facilities treating similar wastes. This approach facilitated 
the maximum acceleration of the disposal at these two sites. 
The Aberdeen site, as I mentioned earlier, is on line and 
employing this concept quite successfully, the use of a 
commercial TSDF, treatment storage and disposal facility, for 
the treatment of the hydrolysate at the Aberdeen site.
    Technical concerns were raised here in the Dayton area. 
This coupled with the decision by the Montgomery County Water 
Commission relating to Perma-Fix's operating permit has 
resulted in the decision by the Parsons Co. to terminate the 
contract. We are in the process of pursuing alternate options 
for the treatment of the Newport hydrolysate. We are actively 
working on these options and will have an alternate course of 
action in place by the end of the month of November. We are 
still committed to rapidly neutralizing the VX stocks at 
Newport and are looking at implementing mitigating measures to 
try to maintain as rapid a schedule at Newport as we possibly 
can.
    In summary, the chemical weapons storage and disposal 
program has demonstrated over a very long timeline a strong 
safety and environmental compliance record. We will continue 
this demonstration throughout the course of the program, 
safeguarding our work
force and the American public until the last drop of material 
is disposed of.
    Thank you, Mr. Chairman.
    Mr. Turner. Mr. Stewart. Mr. Stewart is with Parsons.
    [The prepared statement of Mr. Parker follows:]

    [GRAPHIC] [TIFF OMITTED] T3283.068
    
    [GRAPHIC] [TIFF OMITTED] T3283.069
    
    [GRAPHIC] [TIFF OMITTED] T3283.070
    
    [GRAPHIC] [TIFF OMITTED] T3283.071
    
    [GRAPHIC] [TIFF OMITTED] T3283.072
    
    [GRAPHIC] [TIFF OMITTED] T3283.073
    
    [GRAPHIC] [TIFF OMITTED] T3283.074
    
    Mr. Stewart. Mr. Chairman and members of the Committee, I 
am John Stewart and I work for Parsons Infrastructure & 
Technology Group, Inc., hereinafter referred to as Parsons.
    Parsons has the prime contract with the U.S. Army to 
design, construct, operate and close the chemical agent 
neutralization facility located at the Newport Chemical Depot 
in Indiana. I am Parsons' project manager for the Newport 
Chemical Agent Disposal Facility and I am responsible for all 
aspects of Parsons' work at Newport. The Newport project will 
neutralize the VX nerve agent and transport the neutralized 
material, hydrolysate, to an offsite commercial waste treatment 
facility. That was our plan. The hydrolysate is very similar to 
many other standard industrial waste products that are 
commercially treated day-to-day. Off-site disposal of the 
hydrolysate more rapidly eliminates the VX risk to the public.
    The acquisition of an offsite commercial treatment, storage 
and disposal facility involved a rigorous, comprehensive, 
nationwide competitive selection process. Driven by the events 
of September 2001 and a desire to accelerate the destruction of 
VX, we performed an industry survey that identified over 100 
treatment, storage and disposal facilities. We subsequently 
issued a subcontractor qualification survey and received 45 
expressions of interest in May 2002. During June 2002, we 
performed site audits and compliance history reviews at the 11 
facilities that indicated interest and which we initially 
evaluated as qualified and permitted to treat waste with 
characteristics similar to hydrolysate. In July 2002, we issued 
a request for proposal to the 11 firms. The request for 
proposal evaluation criteria included technology, expertise, 
transportation plans, regulatory compliance, safety, history, 
capacity, risk as it relates to stability, environmental, 
public outreach, technical capability and cost. In October 
2002, we received four proposals. One of these proposers 
subsequently withdrew their proposal.
    In December 2002, Parsons informed the Army of their 
selection of a hazardous waste treatment facility for the 
disposal of hydrolysate. The selected facility was Perma-Fix in 
Dayton, OH, a fully permitted disposal facility for this type 
of waste. The language used by Parsons in our subcontract with 
Perma-Fix required the subcontractor to perform public and 
government notification and public outreach sessions to 
``establish a measure of public acceptance,'' and stated that 
``completion of subcontract work may be contingent upon the 
establishment and maintenance of public acceptance throughout 
the subcontract period of performance.''
    This statement was separated from the other deliverable 
requirements because it was a guiding principle for the Public 
Outreach Program rather than a contract deliverable. The gauge 
Parsons used to evaluate public acceptance was two fold. First, 
the establishment of an active public outreach program and 
second, compliance with Federal, State and local requirements. 
It was never Parsons intent to establish a requirement to 
obtain, retain or achieve public acceptance by every citizen, 
but to establish a measure of community understanding that 
Perma-Fix could safely and effectively treat the hydrolysate 
generated at the Newport Chemical facility. It is also 
important to understand that in its request for proposals, 
Parsons neither used public acceptance as a selection criterion 
for the applying firms, nor required public acceptance as a 
contact deliverable.
    On October 13, 2003 Parsons directed Perma-Fix to stop work 
on the subcontract related to treatment of hydrolysate produced 
during neutralization of the chemical agent VX at Newport. With 
this action, Perma-Fix's Dayton, OH site is eliminated as an 
alternative for the disposal of the Newport hydrolysate. This 
decision was reached after the Montgomery County Commissioners' 
meeting on October 7, 2003, where it become evident that 
constraints related to Perma-Fix's operational permit with 
Montgomery County would preclude the use of the Perma-Fix 
facility in Dayton, OH. Parsons, as part of the Newport project 
team, is working closely with the U.S. Army to evaluate options 
for the hydrolysate treatment.
    Of primary importance is the safety of the worker and of 
the public, closely followed by protection of the environment. 
Schedule and costs will always be considered, but we will not 
allow schedule or costs to jeopardize safety or the 
environment. We will communicate our plans for a path forward 
as soon as we have identified one, which should be in the 
November 2003 timeframe.
    That is the end of my statement, sir.
    [The prepared statement of Mr. Stewart follows:]

    [GRAPHIC] [TIFF OMITTED] T3283.075
    
    [GRAPHIC] [TIFF OMITTED] T3283.076
    
    [GRAPHIC] [TIFF OMITTED] T3283.077
    
    [GRAPHIC] [TIFF OMITTED] T3283.078
    
    Mr. Turner. I will go through a series of questions for 
members of the committee, and I will start. I think the most 
important question for everyone in this community is the 
current status of this contract and the elimination of the 
Perma-Fix site as a possible site for these materials. Mr. 
Stewart.
    Mr. Stewart. As I stated, it is a Parsons' subcontract. I 
did sign the letter that stopped all work for Perma-Fix on 
this, and we are in the process of negotiating the termination 
with Perma-Fix. It does eliminate Perma-Fix of Dayton as an 
option for hydrolysate treatment.
    Mr. Turner. OK. And that is the distinction in the 
materials we have. We currently have a copy of Parsons' letter 
of October 14th that is a direction to stop work. And we heard 
Mr. Parker's testimony representing the Army, that the process 
of going from stop work to termination is current. Is that 
accurate that this contract will be terminated and not just a 
stop-work order?
    Mr. Stewart. Yes, sir.
    Mr. Turner. OK. And you are agreeing to the termination and 
that indicates----
    Mr. Stewart. Perma-Fix and I have a meeting of the minds on 
the termination of this project for them.
    Mr. Turner. You have indicated that you will be looking at 
other alternatives. You are not looking at any alternative that 
includes this site, is that correct?
    Mr. Stewart. That is true.
    Dr. Centofanti. We are not challenging their decision.
    Mr. Turner. Pardon?
    Dr. Centofanti. We are not challenging their decision.
    Mr. Turner. OK. What I want to hear from you is that--you 
know, obviously you are currently in the process of where you 
have a stop-work order, but you do not have termination. You 
are concurring and agreeing to termination of the contract with 
Parsons.
    Dr. Centofanti. Absolutely, yes.
    Mr. Turner. When you are in that position, it will be my 
understanding that you will be under no contractual obligation 
to accept any of these types of materials at your site, is that 
correct?
    Dr. Centofanti. Correct.
    Mr. Turner. Do you have any intention to ever again enter 
into an agreement to accept these materials at this site?
    Dr. Centofanti. No, absolutely.
    Mr. Turner. Are you participating in discussions of 
alternatives in the disposal of these materials with the Army 
and with Parsons?
    Dr. Centofanti. Not at this time. This contract to only use 
Dayton was the only contact we had with the Army and the--and 
Parsons.
    Mr. Turner. If they should engage you in those discussions, 
the Army and Parsons, for the purposes of discussing with you 
technology or proprietary information or knowledge that you 
have, it is my understanding from your testimony that any of 
those options or alternatives that you would propose would not 
include the Daytonsite.
    Dr. Centofanti. They would not include Dayton.
    Mr. Turner. Mr. Parker, my understanding from your 
testimony is that this contract is moving toward termination. 
The Army is consenting to that, is that correct?
    Mr. Parker. That is correct.
    Mr. Turner. And in that termination then the facility of 
Perma-Fix that is in the Dayton area would not be considered as 
a viable alternative?
    Mr. Parker. That is correct.
    Mr. Turner. You had also mentioned that you are looking at 
other alternatives, and so I take that to mean in your 
testimony that the alternatives that you are looking at do not 
include a facility in the Dayton area?
    Mr. Parker. That is correct.
    Mr. Turner. I have some other questions that relate to--let 
me ask this one before I pass it off to the chairman. With 
respect to Parsons, I take it that you are consenting fully--
you have indicated that the action of the Montgomery County 
Commissioners is evident as a constraint to your moving forward 
with the contract. I take it that since you as parties are 
moving forward with the termination of this agreement, that you 
will not be moving forward with any litigation with Montgomery 
County or any other jurisdiction to try to obtain permits in 
any judicial process?
    Mr. Stewart. We have--public acceptance was a gauge. We 
were waiting for the technical, independent evaluation from 
Montgomery County. When we saw how everything happened on 
October 7th and everything, no, we are not moving forward with 
any sort of litigation, any sort of further consideration in 
the Dayton area.
    Mr. Turner. Dr. Centofanti, with respect to Perma-Fix?
    Dr. Centofanti. We are finished with this project in 
Dayton, period. There is nothing moving forward in terms of 
anything with the county or----
    Mr. Turner. So you are accepting the ruling of the county 
then? You do not intend to pursue any----
    Dr. Centofanti. We do not intend to challenge it. I would 
have said that earlier, we would not challenge the county if 
they said no.
    Mr. Turner. Mr. Parker.
    Mr. Parker. The Army is following the lead of our prime 
contractor, Parsons. We have no intent of pursuing any matter 
here locally.
    Mr. Turner. OK. I have other questions with respect to the 
public acceptance process, but I will turn to the chairman at 
this point.
    Mr. Shays. Thank you. As we said in the beginning, one 
issue is the issue as it relates to Dayton and surrounding 
communities. I think that is fairly clear where we are at. Mr. 
Parker, I would like you to have the opportunity to describe 
the challenge that you have in disposing of chemical weapons. I 
want to say to all of you here, we know you have a very 
important task, and we know that you have a requirement by 
Congress, by the President, by treaty obligations that are 
international treaties, to dispose of these chemicals. So we 
have a deadline that frankly I wonder if we will be able to 
meet. I do not think the Russians, for instance, will be able 
to meet it. So just tell me what the challenge is overall. Give 
me and this committee a sense of the task at hand. I would like 
you to speak a little louder if you could.
    Mr. Parker. If I could. I am sorry, I am in the process of 
taking a cold here and I am----
    Mr. Shays. I am sorry.
    Mr. Parker. As you--you have been following this, Mr. 
Shays, I know you have been in Russia to see their program in 
regard to the overall activity--your committee looking at the 
cooperative threat reduction program and the effectiveness, 
etc. So you have a basis of the international challenges.
    The U.S. challenges are one that these materials are highly 
toxic, they are dangerous, they were intended to be lethal. In 
many regards, the way the munitions are configured for a 
military use, mated up with high explosives and fuses, take the 
challenge that would be associated with the chemical agents 
themselves, which are significant, and brings many other 
confounding challenges. The mechanical processes in order to 
separate these various components make these facilities very 
large. The need for total containment in the event that one of 
the munitions would detonate during the disassembly process 
requires very large, very robust structures which are quite a 
challenge to construct. All of the maintenance activities have 
to be done in a suitable level of protection, which is form of 
total encapsulation, which makes the maintenance operations 
extremely difficult and challenging. The primary treatment 
technology that we have chosen for most of the assembled 
chemical weapons, an incineration-based technology, has been 
highly controversial, raising the concerns with many members of 
the affected communities around these storage sites.
    Mr. Shays. Let me ask you, is that part controversial with 
the scientists or with the general public? Let me paraphrase by 
saying when I was in Russia, at one site, which literally had 
millions of shells of chemical weapons stacked in sheds that 
reminded me of summer camp facilities. They were stacked like 
wine bottles--and which, you know, I will say again 
parenthetically, a lot of concern that someone could just 
simply insert something in and take out the shell and the 
Russians would never know. When I was there, they were saying 
we incinerate, but the Russians were not comfortable with that 
and they want to go through this dilution process. So tell me, 
is this a debate on incineration among scientists or between 
scientists and the general public?
    Mr. Parker. Well, I think if one would accept the National 
Research Council as a solid scientific body, they have endorsed 
incineration as an effective and safe means to dispose of 
chemical weapons. The concerns are raised by members of the 
community, and it is beyond a narrow slice of environmental 
activists, it is a general concern about the potential release 
out of an incinerator of incomplete products of combustion 
during normal operations and in the event of an accident the 
release of chemical warfare material.
    Mr. Shays. So it is more based on, if you did the process 
properly and you truly incinerated, there is not a disagreement 
with the environmental community. The environmental community 
raises its concern that probably some would be released without 
incineration or there could be some other experience during 
that process that could be catastrophic?
    Mr. Parker. I think more on the environmental activists' 
side who were fundamentally opposed to incineration as a 
hazardous waste treatment technology in a universal context, 
that the health standards by which these processes are judged 
are inadequate.
    Mr. Shays. Is it cheaper and faster to incinerate than to 
go through this other process? How should I describe the 
process?
    Mr. Parker. Well, chemical neutralization.
    Mr. Shays. Chemical neutralization. Is that a longer 
process and more costly?
    Mr. Parker. We, at the direction of Congress, just recently 
looked at the Bluegrass, Kentucky and the Pueblo, Colorado 
sites comparing incineration with neutralization, and it was--
in a cost and schedule context, it is a wash. It is a break 
even.
    Mr. Shays. We have eight storage sites, is that correct?
    Mr. Parker. Yes, sir, in the United States.
    Mr. Shays. And how many in other places? None of this is 
classified, correct?
    Mr. Parker. That is correct. We had a facility on Johnson 
Island which was a storage and a disposal site. That site has 
completed its disposal activities and will be formally closed 
out here on November 5th, completely demolishing the demil 
facility. So that will be a complete closure.
    Mr. Shays. Now, are we in the process of doing two types, 
the chemical neutralization and incineration right now to 
destroy chemical weapons or are we doing both?
    Mr. Parker. Yes, sir, four sites are chemical 
neutralization based and four sites are incineration based.
    Mr. Shays. I misunderstood then. In the beginning you said 
we had three sites and then we were adding three. What were 
those three sites?
    Mr. Parker. The three sites that are active are the 
Deserete Chemical----
    Mr. Shays. I do not need to know what they are. I just need 
to know how I can--I get four and four is eight and then three 
and three is six. I must be mixing apples and oranges.
    Mr. Parker. The other two sites are the Pueblo, CO and 
Bluegrass sites, which are just under contract in the design 
phase.
    Mr. Shays. OK. So we have three active, three soon to be 
completed and----
    Mr. Parker. Soon to be active.
    Mr. Shays [continuing]. And two in the design stage?
    Mr. Parker. Correct.
    Mr. Shays. OK. And the process of neutralization it is a 
two-step process?
    Mr. Parker. Yes.
    Mr. Shays. So the second phase, or final phase of 
neutralization will be off those four sites? They would not be 
self contained within those four sites? In other words, you 
will not do both the first part and the second part in the same 
site?
    Mr. Parker. It varies site by site. The Aberdeen site, as I 
said earlier, is right now actively neutralizing, doing the 
primary treatment onsite. The secondary treatment is done at 
DuPont's Deep Water, New Jersey facility in a bio treater. It 
is our intent to seek out a--it is one of the options for the 
Newport site to seek out another commercial facility that is 
more suited, as well as pursue other backup options in Newport. 
Pueblo will use neutralization followed by bio treatment 
onsite. The final decisions have not been made with Bluegrass, 
but it will be onsite neutralization followed by super critical 
water oxidization most likely onsite.
    Mr. Shays. Dr. Centofanti----
    Dr. Centofanti. Yes, sir.
    Mr. Shays [continuing]. Thank you very much, Mr. Parker.
    One, I appreciate the spirit in which you gave your opening 
testimony. I did sense a point that I do want to clarify. The 
sense of feeling an obligation to the Army, but also 
participating. Your company did--let me first understand. You 
represent all of Perma-Fix? You are the CEO of the entire----
    Dr. Centofanti. Yes, of the whole company.
    Mr. Shays. And you have many sites around the country?
    Dr. Centofanti. We have nine treatment facilities. Six are 
hazardous, three are nuclear.
    Mr. Shays. Three are what?
    Dr. Centofanti. Nuclear waste. We are treating nuclear.
    Mr. Shays. Oh, I did not know that. OK, so six hazardous. 
Have you been involved in the--when you say hazardous 
chemicals, not necessarily weaponized chemicals?
    Dr. Centofanti. No, no weapons.
    Mr. Shays. So was this the first introduction you were 
proceeding in the chemical weapons side?
    Dr. Centofanti. Yes.
    Mr. Shays. I am anticipating that part of your--you were 
thinking you were part of a process of dealing with--I do not 
want to put words in your mouth, but I am just trying to wonder 
if I am correct or not. When you were looking at the second 
phase, were you looking more at the second phase as no longer 
being a chemical weapon because it was----
    Dr. Centofanti. No, we did see it as a chemical weapon 
byproduct.
    Mr. Shays. OK.
    Dr. Centofanti. And when we initially looked at it, we had 
a technology we thought was ideal for treating that material.
    Mr. Shays. OK.
    Dr. Centofanti. And so that is why we did pursue it.
    Mr. Shays. Well without getting in a big debate, do you 
still think it is ideal or do you have some questions about it?
    Dr. Centofanti. No. I think the realities here--again, it 
is--you heard many times the Drano issue, and it is very 
interesting, because technically when people like at it they 
describe it that way, even the consultant for the county did. 
But in reality it does come from VX and it carries the 
perceived--there is a perceived reality and a technical reality 
here. And the perceived reality--as you know being a political 
leader--is reality to the public. So it goes back to the 
question of incineration.
    Mr. Shays. I think I understood your answer, but I am not 
quite sure.
    Dr. Centofanti. OK.
    Mr. Shays. But let me just understand, though. From Mr. 
Stewart's testimony--by the way, Mr. Stewart, thank you for 
being here, because it gives us a more complete picture of this 
process. The last thing I want to do as a Member of Congress is 
require that we destroy chemical weapons and then in the next 
process tell you you cannot do it. So it is going to get me to 
this next point of talking about the process. I do want to 
clarify one point. What I think, Dr. Centofanti, I heard from 
Mr. Stewart was though that you did proactively seek a 
contract, is that accurate?
    Dr. Centofanti. Yes, we did at the beginning.
    Mr. Shays. And so from the standpoint of Parsons and the 
Army, you were involved in this process. Once you started this 
process, you felt an obligation to pursue it when I sense you 
had some second thoughts, is that correct?
    Dr. Centofanti. When the--yes, as public opposition built.
    Mr. Shays. You felt as that as a contractor with the 
military and the government, you were out there and you needed 
to pursue it and you had other contracts and other 
relationships?
    Dr. Centofanti. And we were also driven by the that we had 
a process that we thought was very unique and did work and 
would be very valuable to the Army.
    Mr. Shays. I hear you. But from the standpoint of Parsons, 
you sought them out and they gave your contract due diligence, 
and they said yes, you should do it.
    Dr. Centofanti. Yes.
    Mr. Shays. From their standpoint the ball was in your 
court, correct?
    Dr. Centofanti. Yes.
    Mr. Shays. Let me ask you this last point. Is this process 
of getting community acceptance something that is new to you? I 
would think given that this is chemical hazardous material, 
that you should have a pretty good idea of how you do that. I 
mean your statement is on record that you guys did not do a 
very good job of that. I mean that is on the record, and I 
would concur. So we do not need to, you know, beat it to a pulp 
here. Just explain to me, given that you are successful and an 
important company in this process, why did it break down? Did 
you think the system was so good that you did not have to do 
the same kind of outreach? Explain it to me.
    Dr. Centofanti. I think in looking back, you could sit here 
and try to judge would it have ever worked under any 
circumstance and that is always hard to do.
    Mr. Shays. That is true.
    Dr. Centofanti. When the citizens asked for information, 
many times we were not able to give the information to them in 
a timely manner, the information, for whatever reason, and that 
right away bred, you know, a----
    Mr. Shays. A suspicion.
    Dr. Centofanti [continuing]. A suspicion, right. We were 
going through a review process ourselves, so we were also in a 
catch 22. They wanted the information upfront. We were doing a 
review, which was our whole treatability study, and collecting 
much of the information that was needed. So we were in a 
process that was not good from a public outreach point of view. 
They wanted all of the information from our treatability study 
and how it was going to work and get the results when we were 
just doing it to demonstrate it to the Army and Parsons in 
collecting all the information on the final process. To the 
process was a modification of an existing process--two existing 
processes. So we were very confident it would work. But we had 
to put it all together and then demonstrate it to the Army to 
show that it did work, so we were in a tough position in terms 
of the public outreach.
    Mr. Shays. Let me conclude. I have some other questions I 
could ask, but my time is ended.
    I would like to say, Mr. Parker, we received a letter from 
Brigadier General Guy C. Swann, who said information that the 
committees requested would no longer be necessary, since the 
contract was terminated. I would hope you would convey to the 
General that--and we will as well, that the information is 
still requested and still is needed, because we do want to 
understand this process. I do think this has been a learning 
experience that is an important one. I will say--and I mean no 
disrespect--I have not felt that the Army was as forthcoming as 
I would like to see, particularly to Congress.
    I was trying to get into my first panel, you know, you were 
cooperating with, I think, the people you thought had the 
direct involvement, a little less with some government 
officials, and with the public even less. But I would kind of 
put Congress first on this list. We do need this information 
and we will, you know, expect it and so on.
    Mr. Parker. I will take that back to General Swann and Mr. 
Bolton and get the material--see that the material gets to you.
    With regard to the Army's response to the community, we--I 
certainly believe--and I was a little bit surprised, I have to 
admit, that the--some of this may have fallen through the 
cracks. In some cases, I do know, as Lou has indicated, some of 
the questions had to do with responding to how Perma-Fix's 
process would work. When the questions were asked, Perma-Fix 
had yet to complete the work. We only recently got that 
information, along with Dr. Rittmann's report. We will close 
out with the community those outstanding issues. We have tried 
to be responsive to the community. We sent out over 900 
responses to individual citizens answering questions that were 
asked. So I believe we have attempted from an Army perspective 
to be responsive.
    Mr. Shays. I wish you had not have said that, because I 
know you have had a lot of responses. The communication between 
our committee and the Army was less than satisfactory. I do not 
want to even get into kind of documenting it, because I think 
it is pretty obvious. We can have a slight disagreement, but I 
want to say to you from my standpoint it was not, and in terms 
of the interaction with the community it was not good. You may 
have had surrogates that you expected to do a better job, and 
that is a fair comment, but ultimately, as they say, you know, 
we know where the ultimate responsibility lies.
    Mr. Parker. I will accept the criticism and I will take it 
back to the Army leadership and make sure it is understood.
    Mr. Shays. But we will totally and completely pursue 
getting this information.
    Mr. Parker. Yes, sir.
    Mr. Shays. Thank you very much, and thank you, Mr. 
Chairman.
    Mr. Turner. Mr. Parker, one of the things in your written 
testimony and that you have testified orally to is of 
particular concern to me. During my request for information on 
this matter, I have routinely been told by the Army that Perma-
Fix's contract is not with the Army and therefore the terms of 
that contract are not within the Army's purview or authority, 
and you said here, because the Army is not a party to the 
contract between Parsons and Perma-Fix, we will direct any 
questions regarding the terms of that contract relating to 
public acceptance to Parsons. You go on to say that FAR 
regulations are incorporated into the contract. Now my 
understanding of government contracting--and I want you to 
correct me if I am wrong--is that when you award a contract to 
Parson, that Parsons has no ability to enter into a contract 
with Perma-Fix unless the full text of that contract is 
submitted to you for approval.
    Mr. Parker. Let me defer that to Brad Pierce who is the 
contacting officer for the primary contract between the Army 
and Parsons.
    Mr. Shays. We need to make sure you have a card for the 
transcriber.
    Mr. Turner. And he was sworn in.
    Mr. Pierce. I will do that as soon as this question is 
over.
    Generally in government contracting----
    Mr. Turner. Would you identify yourself.
    Mr. Pierce. Oh, I am sorry. My name is Brad Pierce. I am 
Chief of the Camp Demil Contracting from the Army Field Support 
Command. So I have responsibility for all the systems contracts 
for chemical demilitarization.
    In response to your question, in government contracting, 
yes, our relationship is with the prime contractor, and it 
depends on the contract about how far that goes to our review 
and approval of their subcontracts. Clearly all the terms and 
conditions that we put in the contract from the Federal 
Acquisition Regulations have a flow-down provision to them, 
that we expect to go down to the systems contracts. We review 
the contractor's purchasing system to ensure that they have 
those processes in place, that their people are trained to 
ensure that they are complying with those requirements. If a 
contractor has a purchasing system that is approved, then we 
allow them to subcontract without prior government review of 
their subcontracts. We will just go in on--typically on an 
annual basis and audit what they have done to ensure that they 
are complying with the terms and conditions of the contract.
    Parsons does have an approved purchasing system. 
Notwithstanding, when contracts get over a certain dollar 
threshold--and each contract defines that differently--we have 
the right to prove or to consent to their subcontracts. They 
provide us a package of their subcontract terms, conditions and 
negotiations, we review it to ensure that they have complied 
with competition, small business, the terms and conditions of 
our contract and then give them the consent to go forward and 
subcontract. But that relationship at that point in time is 
between the prime contractor and the subcontractor. You know, 
the terminology we use is privity of contract. There is no 
privity of contract between us the government and the 
subcontractor. We constantly remind our work force that nobody 
in the Federal Government has the right to direct a 
subcontractor. We just do not have the authority.
    Mr. Turner. In this particular instance we are dealing with 
the destruction of weapon systems.
    Mr. Pierce. Yes, sir.
    Mr. Turner. Did the Army approve the contract between 
Parsons and Perma-Fix?
    Mr. Pierce. Yes, we did.
    Mr. Turner. And did that include approving the text of that 
contract?
    Mr. Pierce. What we approved--what we do in real--it is a 
matter of terminology. We gave the consent for them to 
subcontract, but as part of that process--as a matter of fact, 
it was somewhat unusual in a lot of contracts--the Army did 
provide a lot of oversight and even participated in some of the 
review of the proposers to their subcontract requests for 
proposal.
    Mr. Turner. So is that a yes?
    Mr. Pierce. Yes.
    Mr. Turner. OK. That is an important point to me, because 
in every meeting that I had with the Army, I would get, well 
this is between Parsons and Perma-Fix, and it is not between 
Parsons and Perma-Fix. It is between the community and the 
Army, because the Army is the government, and when the 
government is coming into a community and saying we are going 
to do something, but we are not really obligated to you as a 
community, it is very disconcerting to people who here 
specifically believe that the government is by and for us, not 
by and for a contract between Perma-Fix and Parsons. So I 
wanted to make that point that you approved the text of the 
contract. So the sentence saying that you are not a party to 
the contract and therefore the language of the contract is just 
between Perma-Fix and Parsons really is not very accurate I 
believe because it does not tell the whole story. The whole 
story is, you reviewed the contract, you approved its terms; 
therefore, you would have approved a public acceptance 
component.
    Mr. Parker, in your position as the Acting Director of 
Chemical Materials Agency, would communications from Parsons 
concerning their belief that a portion or a provision of the 
contract might not be able to be performed or that the contract 
itself might be in jeopardy, would those communications come to 
you?
    Mr. Parker. Ultimately yes. There are--as Mr. Pierce 
outlined, there are personnel at the Newport site who are 
directly involved, as well as a project manager assigned to 
this project, Col. Jesse Barber, and that information would 
flow up through either the site or the project manager, Col. 
Barber, to me.
    Mr. Turner. The reason why I asked this question, I 
wondered if the Army received any communications from Parsons 
or Perma-Fix that indicated that they believed the public 
acceptance was not going to be achieved and that the contract 
may need to be terminated?
    Mr. Parker. Well certainly it was very obvious and we were 
well aware--I was well aware of the contentious nature with the 
community, and there was a lot of discussion about how we were 
going to address that. The approach was to await the technical 
outcome of Perma-Fix's treatment studies, and then the feedback 
from the independent technical consultant--the water board's 
technical consultant, Dr. Rittmann, to make a judgment of 
whether or not there was a technical basis to go forward with 
the contract. As it turns out, the technical issues raised, 
plus the issue of whether or not--or the decision, I guess, 
that the water board was not going to issue a permit made the 
whole issue of public acceptance somewhat moot because we were 
not going to go forward with a contract because it was 
unexecutable independent of public acceptance.
    Mr. Turner. I am going to ask the question again because I 
was not quite certain of your answer. It sounded to me that 
there were discussions that occurred between the Army, Parsons 
and Perma-Fix with respect to the perceived lack of public 
acceptance by this community on the part of Perma-Fix and 
Parsons, and that concern was given to the Army as a possible 
issue that would impact both Parsons and Perma-Fix's ability to 
perform. Is that correct?
    Mr. Parker. I would shape it slightly different. The Army 
was aware, I was aware, I think the Army leadership was aware 
of the highly contentious nature, the feedback from members of 
the community, the local elected officials, as was cited 
earlier, 33 or 38 jurisdictions that had issued some form of 
proclamation or other vehicle, were raising their concerns and 
negative position toward Perma-Fix processing this material. 
That was all known and it was an area of concern and a lot of 
discussion.
    Mr. Turner. And the Army was still prepared to proceed even 
with the resounding roar that you just described?
    Mr. Parker. We would have taken--had the technical outcome 
from Perma-Fix's efforts been validated by the independent 
reviewer--or independent review by Dr. Rittmann and the water 
board would have come forward with a positive position on 
allowing that material to be treated, I think we would have 
went out to the community--or requested Perma-Fix to go out to 
the community, along with Parsons, and we would have 
participated and made an attempt to convince the community that 
their issues could be addressed. This was a safe and 
environmentally acceptable manner. If the communities would 
have come back at that point with a negative, then we would 
have had another decision point on whether or not to proceed.
    Mr. Turner. Next, I would like to introduce Larry Halloran 
who is our legal counsel for the committee, who also has a few 
questions.
    Mr. Halloran. Thank you, Mr. Chairman. Just--two things 
really. Mr. Parker, you described the process underway--the 
chemical demilitarization process underway where the second 
phase goes to a plant--the DuPont plant in New Jersey, is that 
right, or Pennsylvania?
    Mr. Parker. New Jersey, yes.
    Mr. Halloran. New Jersey. Was there a public acceptance 
provision in that subcontract?
    Mr. Parker. No, I do not believe there was. Brad, can you 
clarify? I should have asked you to start with.
    Mr. Pierce. Yeah. I have reviewed that subcontract and 
there was some language in there about public outreach. It did 
not have the same language about a public--you know, 
maintenance of public acceptability, though.
    Mr. Halloran. To your knowledge, is the same language in 
this contract in effect any place else?
    Mr. Pierce. No.
    Mr. Halloran. OK. Another matter--and this might be best 
addressed to Dr. Centofanti. In the briefing we received, 
hydrolysate was described as an industrial waste similar to 
many things found in the industrial waste stream and is unique 
only because of where it is generated, because it comes from 
scary VX. Do you agree with that characterization, Dr. 
Centofanti?
    Dr. Centofanti. When we started this project we had several 
conditions. One, of course, that they could guarantee--
demonstrate to us that there was no VX in it. So I think our 
biggest concern in the early stages was the demonstration of 
the lack of VX. If you do look at it chemically, and I think 
from a very technical point of view--this raises many issues 
with the community in terms of trying to describe it as some 
simple chemical material. You heard it with the citizen groups. 
I think it actually works against anybody trying to do that, 
because no matter what it is, it--where it came from, it 
carries just a real stigma, a public stigma. There is a little 
misunderstanding on the Schedule II compounds. They are really 
just the components. But all of that just fits together to add 
a level of concern and distrust about the materials. So the----
    Mr. Halloran. In your other work, what is the closest thing 
to this that you handle?
    Dr. Centofanti. I do not even want to mention because Mary 
will jump on me over here. It was initially----
    Mr. Halloran. Not here, any place. In any industrial waste, 
what could I look up in a chemical manual?
    Dr. Centofanti. Dr. Rittmann himself described it in a 
meeting and he was sort of booed down when he said, well this 
is like Drano.
    Mr. Halloran. Yes.
    Dr. Centofanti. And technically, if you really look at it, 
it is hazardous because it has sodium hydroxide in it which is 
Drano. That is technically correct. But again, I think that 
is--materials like this cannot even be looked at like that 
because of where it came from and the concern does it have VX, 
does it have other byproducts and that they are that way?
    Mr. Halloran. Thank you very much.
    Mr. Turner. Mr. Chairman, do you have additional questions?
    Mr. Shays. Yes. One, I would like to put in the record, a 
letter we received from R.L. Brownlee, Acting Secretary of the 
Army, on July 30th in conjunction with the letter that we 
received, dated--I guess it was today. We were given today. And 
this letter said in July--when we--it is stamped July 30th. It 
said we would receive important information in 45 days. So we 
will just insert both of those.
    And just to ask you, Mr. Stewart, and maybe Mr. Parker, the 
term ``a measure of public acceptance,'' is that a term that is 
put in your contract by the Army that you then transferred to 
your subcontractor?
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T3283.079
    
    [GRAPHIC] [TIFF OMITTED] T3283.080
    
    [GRAPHIC] [TIFF OMITTED] T3283.081
    
    Mr. Stewart. No, sir.
    Mr. Shays. Pardon me?
    Mr. Stewart. No, sir.
    Mr. Shays. No. So tell me, is that just a term that you use 
when you interact with all your subcontractors? Is it just like 
company policy that you want public acceptance and so therefore 
you would expect it when you--first off, do you have your own 
operations?
    Mr. Stewart. Yes, sir.
    Mr. Shays. Why was that term put in there?
    Mr. Stewart. It is not a standard term that we use in our 
subcontracts. This is the only subcontract that Parsons has 
that has the term public acceptance in it.
    Mr. Shays. Was that at the request of the government?
    Mr. Stewart. I would not say it was at the request of the 
Army. It was a lot of discussions. As it was outlined earlier, 
it was a very collaborative, integrative team putting together 
this acquisition. It was suggested that, you know, we needed an 
active public outreach program. It was suggested that one 
measure--to make sure that we had an active outreach program to 
get the facts out, to address concerns was to put some sort of 
measure of public acceptance. At that time it seemed very 
prudent and we put it in our subcontract.
    Mr. Shays. At that time it was prudent and it still is 
prudent, but I mean it is a lot of wiggle room in a measure of 
public acceptance. And you may have seen this term used by the 
community in ways that you did not expect. But I do think it 
was a wise thing. I do think you should expect that your 
subcontractor will reach out to the community to get 
acceptance. I am just curious as to what motivated that.
    Mr. Chairman, I want to, if I could, thank our witnesses, 
and say that those of you working for the government, we 
appreciate your service to our government. And to those, Mr. 
Parker, who work with you, we know you have a very difficult 
task and we know that there are lots of pressure to deal with 
this very serious issue as quickly as we can and we appreciate 
that. I would like to think there will be better communication 
between your office and the Army and our committee, and I think 
that is going to happen. And to say that--you know, one thing, 
all of us in this room, we are all part of one family. Dayton 
has clearly demonstrated that it can work in a very mature and 
intelligent way, and I would think the people of Dayton would 
be very proud of how you interacted with each other and 
ultimately how you interacted with the government as well. You 
know, we all keep learning. I cannot tell you the mistakes that 
our committee makes and I make as a Congressman, and gratefully 
some of them are not so public. But we have a lot to be proud 
of in our country. I appreciate the tone of the witnesses and 
their cooperation at this hearing, both in the first panel and 
the second. And I would also say the cooperation of the 
audience as well. Thank you.
    Mr. Turner. Thank you, Mr. Chairman. I want to thank you 
again for the opportunity to have this hearing. And for each of 
the members of the second panel, we always ask, and the 
Chairman always makes certain that if anyone who participates 
in the panel has anything else that they want to add or they 
have thought since an answer or something they want to clarify, 
that they would have that opportunity. Do any of you at this 
point wish to embellish your comments?
    Mr. Parker. Congressman Turner, I would like to just leave 
one point that--so it is not potentially misunderstood. The 
term was used that we terminated, or Parsons has terminated the 
contract, and, you know, as you pointed out, ultimately the 
Army is responsible. So the Army and Parsons have terminated 
the contract with Perma-Fix. Rather than leave a potentially 
negative note on that, I would like to note for the record that 
Perma-Fix did perform under the terms of the contract, through 
the treatment study, they did exactly what they were contracted 
to do. They did it well. The outcome of that effort, which is 
why we did it, because we did not know the outcome, led to a 
conclusion that the follow-on activity, the ultimate disposal 
of the hydrolysate was simply not going to work out in this 
setting. But Perma-Fix performed well under the terms of the 
contract, and any implication that there was a negative toward 
Perma-Fix in that regard is misunderstood.
    Mr. Turner. Very good clarification, Mr. Parker. Thank you 
for making that.
    Anyone else?
    [No response.]
    Mr. Turner. If not, our chairman has generously offered 
that we would end this hearing at 3 o'clock and that during the 
next 10 minutes or so, what we would do is, we would ask for 
the panel to remain and that if anyone present who did not get 
to testify, and who is a member of the audience, would like to 
make a comment, it would be included in the record. Not a 
question for our panel, but a comment that would be included in 
the record, and if it can be done in a quick manner so that 
anyone who has an interest in doing that would have an 
opportunity to. We would take this 10 minutes then to include 
those comments in the record.
    Mr. Shays. Mr. Chairman, what will be important is, whoever 
chooses to, we will make sure that the transcriber will have 
their full name and address. So we will like you to state it 
for the record. It would be helpful, if I could, Mr. Chairman, 
to just know how many right now want to and then we know how we 
space out the time. So we have one other individual there and 
so on. How many people? If you would stand then we would know. 
Why do not one or two come on this side.
    Bob, are you going to get their full name and address and 
so on?
    Mr. Briggs. Yes, sir.
    Mr. Shays. I have until five after three.
    Mr. Turner. OK. And this will not be considered testimony, 
but additional comments for the record?
    Mr. Shays. It is testimony, but not under oath.
    Mr. Turner. Testimony but not under oath.

               STATEMENT OF JANE FORREST REDFERN

    Ms. Redfern. I am Jane Forrest Redfern and I am 
environmental projects director for Ohio Citizen Action. I have 
worked in this community for 17 years and I have never seen a 
company or organization be so bad at public outreach. The 
citizens of Jefferson Township spent very little money in 
educating themselves, educating the public, public officials, 
regulatory agencies, and this community now knows how to spell 
and say VX hydrolysate. I mean it is not a fear of VX nerve 
agent. There are very toxic byproducts, Schedule II compounds, 
in what they were going to bring here. As someone said, it was 
a dilution, it was not a permanent treatment for VX hydrolysate 
as Dr. Rittmann's report.
    You know, it is just incredible to me that a group of folks 
could educate the community and let them know--you know, over 
and over, the Army, Mr. Flynn respectfully, came to our 
accountability session. We got more by getting citizens 
together and getting all of the officials lined up--we got more 
out to the public at that meeting than the Army or Perma-Fix 
did in the last year. I mean it was just incredible at the lack 
of organization and outreach and respect for the citizens of 
this community, or any community, about what their--what they 
could actually understand and absorb and make decisions for 
themselves.
    I guess I want to make a few points and then I will end up. 
One is that I hope the Army and Congress and Parsons takes Dr. 
Rittmann's report very seriously. There are some major concerns 
about the bio remediation. It looked like dilution to me, and 
that is not a solution for pollution. I think that is a thing 
that Parsons needs to consider, you know.
    And then last, I guess, I want to just commend all of the 
public officials, Congressman Turner, this committee, because 
this is a factor of chemical safety. I have worked with 
communities throughout the country and throughout this region 
and there are facilities that threatens our safety every day in 
this neighborhood.
    Mr. Turner. Jane, we are going to have to move on.
    Ms. Redfern. And we hope that you will consider not only 
looking at these more closely but facilities that pose a 
chemical threat right now today.
    Mr. Shays. Mr. Chairman, may I take the gavel back?
    Mr. Turner. You have it. [Laughter.]
    Mr. Shays. Let me just explain. I am getting on an airplane 
and I would like to be able to conduct the hearing and be able 
to conclude it and not miss my flight. I love Dayton, but I 
want to go home. [Laughter.]
    So we will just come to the next person. I am sorry you 
have to come up front. I am going to be pretty strict about the 
time. It is going to be a minute to a minute and a half. If you 
would state your name and your point.
    Mr. Dell. Do I hold this?
    Mr. Shays. No, you can just talk nice and loud, straight 
forward.
    Mr. Dell. All right, I will be brief.

                    STATEMENT OF PHILIP DELL

    Mr. Shays. Your name.
    Mr. Dell. My name is Philip Dell and I am a resident of 
Jefferson Township. I just primarily wanted to make one point. 
I will add that I am very grateful to you. I think you guys 
have done a wonderful job.
    But I just wanted to make one point that I did not hear 
anywhere else. Three miles from Perma-Fix is the Veterans 
Administration Hospital and Medical Center which serves 
thousands of veterans on a daily basis. I did not hear that 
mentioned anywhere in the facts, so I just wanted to put that 
in the record.
    Mr. Shays. Thank you very much.
    Next. Is the mic working? Hold on 1 second. We are going to 
get you a mic. Come on up here. There it is. It is working. It 
is working, sir. Your name and address. Your name, where you 
live and your position.

                  STATEMENT OF DERRELL ARNOLD

    Mr. Arnold. Yes, my name is Derrell Arnold and I live in 
Dayton, OH. I am an environmentalist.
    Mr. Shays. Let me just make one more point. I am sorry to 
interrupt you. I need them to write their address. I do not 
want you to Bob.
    Mr. Arnold. Yes, sir. One thing I would like to bring up 
is, the Army has ultimate cradle-to-grave responsibility 
regardless of who they sub the contract out to. The Army is 
still responsible for their product. Even if it goes into a 
landfill it is still theirs. If it leaches out from the 
Superfund perspective it goes right back to the Army. They are 
the ones that are to pay for the cleanup.
    In addition, as far as this community awareness thing, I 
just want to read this to you real quick. This is SARA, Title 
III, which was enacted in 1986. The Emergency Planning and 
Community Right to Know Act of 1986 establishes requirements 
for Federal, State and local governments and industry regarding 
emergency planning and community right to know reporting on 
hazardous and toxic chemicals. This legislation builds upon 
EPA's Chemical Emergency Preparedness Program and numerous 
State and local programs aimed at helping communities to better 
meet their responsibilities in regard to potential chemical 
emergencies. The Community Right to Know provisions will help 
to increase the public's knowledge and access to information on 
the presence of hazardous chemicals in their communities and 
releases of these chemicals into the environment. States and 
communities--excuse me, I lost my place. States and communities 
working with facilities would be better able to improve 
chemical safety and protect public health and the environment. 
The Emergency Planning and Community Right to Know, also known 
as Title III----
    Mr. Shays. We need you to wrap up.
    Mr. Arnold. I was just going to let you know it is four 
sections.
    Mr. Shays. OK, thank you.
    Mr. Arnold. You are welcome. Thank you.
    Mr. Shays. I appreciate it very much.
    I am sorry to rush you like this, but if you could, please.

                    STATEMENT OF TOM TILLER

    Mr. Tiller. My name is Tom Tiller and I live in Montgomery 
County. I have several points that I certainly would like to 
make. The designation of a Schedule II component in the VX 
hydrolysate is from the Chemical Weapons Convention, the 
international treaty. That is not just an incidental item. That 
is given that designation because of its ability to 
reconstitute the VX.
    I also certainly think this committee should look at the 
whole concept of putting out a contract, the subcontract to 
Perma-Fix, that was both demonstration and destruction of the 
material, that they were not dealing with that material in the 
past. They had not done it before. They had to demonstrate that 
they had a process to do it, as opposed to other processes that 
were investigated by the National Research Council where the 
Army went to someone and said this is the process to use. They 
went to Perma-Fix and gave them a contract to both come up with 
the process and destroy it, which gives, you know, problems in 
all respects. Certainly I would not expect a contract to be 
written on that basis for that material.
    Mr. Shays. Thank you, sir.

                    STATEMENT OF LAURA RENCH

    Ms. Rench. My name is Laura Rench. I live in New Lebanon, 
OH.
    If I was to understand Mr. Parker correctly from the Army, 
he stated that if we are to believe the National Research 
Council, incineration is a safe way of destroying chemical 
weapons. He also stated that the maintenance and construction 
of facilities to destroy chemical weapons is of the highest 
standards, but yet the maintenance, construction and treatment 
of these facilities is not done by NRC scientists. It is done 
by contractors like Parsons and subcontractors like Perma-Fix; 
therefore, how do we ever know destruction of chemical weapons 
is done by the highest standards?
    Thank you.
    Mr. Shays. Thank you very much.
    Tip the mic down a little bit.

                STATEMENT OF GWENDOLYN CRUTCHER

    Ms. Crutcher. My name is Gwendolyn Crutcher and I live on 
Liberty Ellerton Road.
    When it started, we were told that it could not be 
incinerated, that it had to be disposed of the way Perma-Fix 
was. I want to know how can that be when you have it 
incinerated in Anniston, AL, and if anybody is going to do 
anything in Congress to make sure that that community is safe? 
Because they have given them gas masks. Nobody has ever brought 
that out. Please check other sites.
    Mr. Shays. Thank you, ma'am.
    Ms. Crutcher. Thank you.
    Mr. Shays. Does that mic work over there?
    Ms. Bronston. Yes.
    Mr. Shays. OK. Yes, ma'am.

                  STATEMENT OF WILLA BRONSTON

    Ms. Bronston. I would like to say that----
    Mr. Shays. Give us your name and where you are from.
    Ms. Bronston. Willa Bronston, Dayton, OH, Jefferson 
Township.
    And I would like to say that one of our assertions from the 
beginning was that this was an experiment, and by their own 
testimony they were trying to demonstrate to see if they could 
do it. All along that is probably something that should have 
preceded really even trying to come into a community, the 
testing.
    The other thing that I would like to say is about Anniston, 
AL, and draw your attention to incineration. They have a state-
of-the-art--``state-of-the-art'' facility there where after 
their beginning incineration trials left a large percentage of 
material that was dangerous, unincinerated when they opened the 
incinerator. And further, they do not incinerate in Anniston, 
AL during school hours. And I think that is an important 
acknowledgement of their fear for the community and for their 
children.
    Thank you.
    Mr. Shays. Thank you, ma'am.

                   STATEMENT OF GENERAL OHUI

    Mr. Ohui. I am General Ohui and I live in Jefferson 
Township, and I want to express my appreciation to my neighbors 
for struggling through this, and for you to come and help us to 
try and alleviate a problem.
    I recognize the fact that the Army has to destroy this 
because it is an international problem. I want to point out, 
because it has not been mentioned very much, the difference 
between Newport and Jefferson Township is that is a military 
operation. It is protected from any intrusion or incursion from 
anybody on the outside because that is a dangerous material. I 
think it needs to be mentioned that is the Army's 
responsibility. And, of course, we get away from this because 
they continue to say that they are going to put this to a 
civilian contractor. It does not alleviate the Army or the 
military's responsibility to do away with this. I think we need 
to keep that in mind. Jefferson Township is not a military 
place. It is a civilian area and we are concerned about 
citizens, as well as we are concerned about the weapons of mass 
destruction. We are not negating the fact it needs to be 
destroyed. But from our research and whatever, it has not been 
done successfully anywhere. It has been looked at by many, many 
areas in terms of zoning and responsibilities and whatever and 
that question has not been answered. So we are still struggling 
for answers and we recognize the fact that you have a problem, 
but we recognize the fact that we do, too. Health, welfare and 
morals is our end of the thing.
    Mr. Shays. Thank you very much, sir.
    Are we all concluded here? Let me again thank 
Representative Michael Turner. I only took the gavel--
[applause]--I only took the gavel when I started noticing he 
was calling all of our witnesses from the floor by their first 
names--[laughter]--and struggling with how he can ask them to 
speak in such a short period of time. I realize that you could 
have gone on much longer and I apologize for moving it along so 
quickly. Again, I thank both our first and second panel. We are 
all learning through this process. The comments made from the 
floor are noted, particularly by our staff. We will followup on 
some of those points. Again, any last comments before I hit the 
gavel?
    Mr. Turner. I would again just like to thank the chairman 
for having this committee. I know he did not pause to allow me 
to do it again, but the reality is, you know, as chairman of 
the committee, what we look at and what issues we dive into are 
of his perusal and control, and his being--the chairman being 
willing to travel here and cause this hearing to occur here in 
addition to his time spent on it is much appreciated. So thank 
you.
    [Applause.]
    Mr. Shays. Just before hitting the gavel, I would like to 
thank Mr. Turner's staff, Stacy Barton, Mike Gaynor and Bill 
Vaughn. The staff of Sinclair Community College. This has been 
a wonderful facility to be at, and we thank them. The 
subcommittee's staff, Chris Skaluba, who is here as a DOD 
management intern and will be returning back to the DOD, and we 
will miss him dearly. Bob Briggs on our staff, as well as the 
court reporter, William Warren. So, William, you get to note 
your name at the very end of this hearing. Thank you. This 
hearing is adjourned.
    [Whereupon, at 3:07 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T3283.082

[GRAPHIC] [TIFF OMITTED] T3283.083

[GRAPHIC] [TIFF OMITTED] T3283.084

[GRAPHIC] [TIFF OMITTED] T3283.085

[GRAPHIC] [TIFF OMITTED] T3283.086

[GRAPHIC] [TIFF OMITTED] T3283.087


</pre></body></html>
